                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              RECOVERY ACT: SLOW PACE PLACING
                                              WORKERS INTO JOBS JEOPARDIZES
                                              EMPLOYMENT GOALS OF THE GREEN JOBS
                                              PROGRAM




                                                                  Date Issued: September 30, 2011
                                                               Report Number:     18-11-004-03-390
U.S. Department of Labor                                    September 2011
Office of Inspector General                                 RECOVERY ACT: SLOW PACE PLACING WORKERS
Office of Audit                                             INTO JOBS JEOPARDIZES EMPLOYMENT GOALS
                                                            OF THE GREEN JOBS PROGRAM

BRIEFLY…                                                    WHAT OIG FOUND
                                                            The definition ETA used for green jobs is jobs associated
Highlights of Report Number: 18-11-004-03-390, issued       with products and services that use renewable energy
to the Assistant Secretary for Employment and Training.     resources, reduce pollution, and conserve natural
                                                            resources. The definition used by ETA to award grants
WHY READ THE REPORT                                         was in compliance with the requirements of the Recovery
                                                            Act.
At the request of the Honorable Charles E. Grassley,
then Ranking Member of the Senate Committee on              Of the $500 million provided, ETA retained $9.9 million
Finance, the Office of Inspector General (OIG), Office of   for services such as program administration and
Audit, initiated an audit of the Recovery Act Green Jobs    technical assistance, and awarded $490.1 million as
Program. Specifically, Senator Grassley requested an        follows: $435.4 million for three training programs,
audit of Recovery Act funds spent on Green Jobs, and        $48.9 million for labor market information, and $5.8
the definition used by the Department for what              million to develop capacity for training programs.
constitutes a green job, as well as the duration of the     Grantees have reported expending $162.8 million (33
jobs created pursuant to the funds expended.                percent) of the amounts awarded, with about 73 percent
                                                            of the grant time having elapsed. As of June 30, 2011,
The Recovery Act provided $500 million for research,        $327.3 million remained unexpended. Moreover, the
labor exchange, and job training projects that prepare      rate of training grant expenditures for the most recent
workers for careers in energy efficiency and renewable      period has decreased.
energy as described in Section 171(e)(1)(B) of the
Workforce Investment Act. The Department of Labor,          ETA and grantees have reported achieving limited
Employment and Training Administration (ETA),               performance targets for serving and placing workers.
awarded these funds under different types of                Grantees have reported serving 52,762 (42 percent) of
competitive grant programs to (1) train and prepare         the targeted 124,893 participants with 61 percent of
individuals for careers in “green jobs;” and (2) collect,   training grant periods having elapsed and have reported
analyze, and disseminate labor market information.          placing 8,035 participants (10 percent) into employment
                                                            out of the target of 79,854 participants. The rates at
                                                            which grantees are achieving their performance goals
WHY OIG CONDUCTED THE AUDIT
                                                            have been increasing. However, with 61 percent of the
                                                            training grant periods elapsed and only 10 percent of
Our audit objectives were to answer the following           participants entered employment, there is no evidence
questions:                                                  that grantees will effectively use the funds and deliver
                                                            targeted employment outcomes by the end of the grant
1) How has ETA defined green jobs?                          periods.
2) What is the status of funds expended, and how have
                                                            WHAT OIG RECOMMENDED
grant funds been used?
                                                            We recommend that the Assistant Secretary for
3) To what extent have ETA and grantees reported            Employment and Training evaluate the Green Jobs
achieving performance targets for training and              program; and in so doing, obtain an estimate of funds
placement of workers, and employment retention?             each grantee will realistically spend given the current
                                                            demand for green job-related skills and the job market
READ THE FULL REPORT                                        for green jobs. Any of the remaining $327.3 million of
                                                            funds determined not to be needed should be recouped
                                                            as soon as practicable and to the extent permitted by
To view the report, including the scope,
                                                            law so they can be available for other purposes.
methodology, and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2011/18-11-
                                                            In response to the draft report, the Assistant Secretary
004-03-390.pdf.
                                                            for Employment and Training disagreed with OIG’s
                                                            conclusion and expects performance to significantly
                                                            increase. ETA’s intention is that all funds will be
                                                            expended by September 30, 2013, or reclaimed to the
                                                            extent permitted by law, as required by OMB.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                Recovery Act: Green Jobs Program
                                     Report No. 18-11-004-03-390
                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1



Results In Brief .............................................................................................................. 2



Objective 1 — How has ETA defined green jobs?...................................................... 5


          The definition ETA used for green jobs is jobs associated with products 

          and services that use renewable energy resources, reduce pollution, and 

          conserve natural resources. ................................................................................. 5



Objective 2 — What is the status of funds expended, and how have grant funds 

              been used? ........................................................................................... 8


          Of the $490.1 million of grants awarded, $162.8 million (33 percent) had 

          been spent while 73 percent of the grant periods had elapsed as of 

          June 30, 2011....................................................................................................... 8



Objective 3 — To what extent have ETA and grantees reported achieving 

              performance targets for training and placement of workers, and 

              employment retention?...................................................................... 10


          ETA and grantees have reported achieving limited performance targets for 

          serving, placing and retaining workers; and risk not delivering targeted 

          outcomes timely.................................................................................................. 10



Recommendations ...................................................................................................... 15



Exhibits
          Exhibit 1 Grant Awards, Expenditures, and Training Outcomes for All 

                    Grants as of June 30, 2011 .................................................................. 19


          Exhibit 2 Proposed Deliverables and Reported Status for Sampled State 

                    LMI Grants as of June 30, 2011 ........................................................... 39


          Exhibit 3 Proposed Deliverables and Reported Status for Sampled Green 

                    Capacity Grants as of June 30, 2011 ................................................... 47



Appendices
          Appendix A Background ..................................................................................... 57


          Appendix B Objectives, Scope, Methodology, and Criteria ................................ 59


          Appendix C Acronyms ........................................................................................ 63


          Appendix D ETA Response to Draft Report ....................................................... 65


          Appendix E Acknowledgements ......................................................................... 73






                                                                                      Recovery Act: Green Jobs Program
                                                                                           Report No. 18-11-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                Recovery Act: Green Jobs Program
                                     Report No. 18-11-004-03-390
                                           U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




September 30, 2011

                        Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210


The American Recovery and Reinvestment Act of 2009 (Recovery Act), signed by
President Obama on February 17, 2009, provided $500 million for research, labor
exchange, and job training projects that prepare workers for careers in energy efficiency
and renewable energy as described in Section 171(e)(1)(B) of the Workforce
Investment Act. The purpose of the Recovery Act was to assist those most impacted by
the recession and to expend funds as quickly as possible consistent with prudent
management. The Department of Labor, Employment and Training Administration
(ETA), awarded these funds under different types of competitive grant programs to (1)
train and prepare individuals for careers in “green jobs;” and (2) collect, analyze, and
disseminate labor market information.

We conducted an audit of ETA’s Green Jobs program as part of our audit oversight
responsibilities and in response to a request from the Honorable Charles E. Grassley,
then Ranking Member of the Senate Committee on Finance. Specifically, Senator
Grassley requested an audit of Recovery Act funds spent on Green Jobs, and the
definition used by the Department for what constitutes a green job, as well as the
duration of the jobs created pursuant to the funds expended. To this end, we developed
the following audit objectives:

     1. How has ETA defined green jobs?

     2. What is the status of funds expended, and how have grant funds been used?

     3. To what extent have ETA and grantees reported achieving performance targets
        for training and placement of workers, and employment retention?

The scope of the audit covered the $500 million authorized by the Recovery Act and
awarded by ETA. It included grantees’ reported data to ETA as of June 30, 2011 (the
most recent period available). ETA awarded these grants in December 2009 and
January 2010, with grant end dates spanning from November 2010 through January

                                             1                     Recovery Act: Green Jobs Program
                                                                        Report No. 18-11-004-03-390
                                                  U.S. Department of Labor – Office of Inspector General



2013. Grantees have been authorized by ETA to spend $490.1 million. As of June 30,
2011, grantees have reported expenditures of $162.8 million (33 percent) of the
authorized amount.

We selected a statistical sample of 87 grants (46 percent) to review, totaling
$231 million (47 percent) from the universe of 189 grants. The grants were reviewed to
determine the period of performance, types of training, milestones and outcomes. We
reviewed Quarterly Financial Reports to determine the status of funds expended, Grants
E-Management System (GEMS) to determine the extent of monitoring performed, and
interviewed ETA national and regional officials. For training grants, we reviewed
Quarterly Performance Reports to obtain reported performance outcomes related to
training and job placement. For non-training grants, we reviewed Quarterly Narrative
Reports to gain an understanding of how grant funds were used.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

RESULTS IN BRIEF

The definition used by ETA to award grants was in compliance with the requirements of
the Recovery Act because it was derived from the Green Jobs Act of 2007 that covered
the seven Green Job industries, and broadly included jobs that clean and enhance our
environment. The definition ETA used for green jobs is jobs associated with products
and services that use renewable energy resources, reduce pollution, and conserve
natural resources. Not all green jobs so defined are new or unique occupations. Some
green jobs build upon existing occupations.

One-Third of Funds Were Expended

Of the $500 million provided, ETA retained the remaining $9.9 million for services such
as program administration and technical assistance, and awarded $490.1 million as
follows: $435.4 million for three training programs, $48.9 million for labor market
information, and $5.8 million to develop capacity. 1 Grantees have reported expending
$162.8 million (33 percent) of the amounts awarded, with about 73 percent of the grant
time having elapsed. As of June 30, 2011, $327.3 million remained unexpended.
Moreover, the rate of training grant expenditures for the most recent period has
decreased. Grantees reported expenditures for training and non-training grants as
follows:



1
 This includes the purchase of equipment, curriculum development, and the hiring of additional staff in
order to build the capacity for Green Jobs training.

                                                    2                 Recovery Act: Green Jobs Program
                                                                           Report No. 18-11-004-03-390
                                                 U.S. Department of Labor – Office of Inspector General



       Training grantees reported expenditures of $126.1 million (29 percent) of the
        amount awarded with 61 percent of the grant periods having elapsed;
       Non-training grantees reported expenditures of $36.7 million (67 percent) of the
        amount awarded although 95 percent of the grant periods have elapsed. In
        addition, 77 percent of the sampled State labor market information and capacity
        grantees have received extensions of the period of performance.

Limited Performance Targets Achieved

ETA and grantees have reported achieving limited performance targets for serving and
placing workers. Grantees have reported serving 52,762 (42 percent) of the targeted
124,893 participants with 61 percent of training grant periods having elapsed, and have
reported placing 8,035 participants (10 percent) into employment out of the target of
79,854 participants 17 months after the grants were awarded. Of the 52,762 participants
served, grantees reported that 20,818 (39 percent) were individuals who already have
jobs and enrolled in training in order to retain their jobs, obtain new work, or otherwise
upgrade their skills. In addition, according to interviews conducted early in 2011 with
regional officials, grantees have expressed concerns that jobs have not materialized
and that job placements have been fewer than expected for this point in the grant
program.

Training grantees reported placing 8,035 participants and have reported 1,336
participants retained employment for at least 6 months, or 2 percent of the targeted
employment retention of 69,717 participants. The low retention rate may be attributable
in part to the timing of placement. For participants placed in the quarter ending
June 30, 2011, retention information will not be available until the quarter ending
December 31, 2011. Nevertheless, the low rate raises concerns that original goals may
not be reached before the grant periods expire.

ETA officials stated that there was no linear relationship between grant periods elapsed
and grant expenditures and outcomes, but indicated that they expect performance to
significantly increase over time due to an initial lag during the start-up phase of a grant.
However, ETA could not demonstrate that grantees were on target to meet grant
outcomes nor was there a plan to ensure that they could. The rate at which grantees
are achieving their performance goals have shown increases from December 31, 2010
to June 30, 2011. For the latest three quarters, grantees reported participants that
completed training were 5, 7, and 11 percent of the targeted 96,658 participants; and
participants that entered employment were 1, 3, and 5 percent of the targeted 79,854
participants. However, with 61 percent of the training grant periods elapsed, only 10
percent of participants entered employment. The performance period end date for a
majority of the training grants is January 2012, or 7 months from the reporting period
used in this report of June 30, 2011 2. At this point, there is no evidence that grantees


2
 For Pathways and ETP that make up the majority (65 percent) of the grants, the grant end date is
January 2012. For SESP grants, the grant end date is January 2013.


                                                   3                 Recovery Act: Green Jobs Program
                                                                          Report No. 18-11-004-03-390
                                          U.S. Department of Labor – Office of Inspector General



will effectively use the funds and deliver targeted employment outcomes by the end of
the grant periods. With no evidence to support grantees were on target to meet
outcomes, grantees may not assist those most impacted by the recession and achieve
performance outcomes such as placements within the time limits set by grant
agreements.

We recommend that the Assistant Secretary for Employment and Training evaluate the
Green Jobs program; and in so doing, obtain an estimate of funds each grantee will
realistically spend given the current demand for green job-related skills and the job
market for green jobs. Any of the remaining $327.3 million of funds determined not to be
needed should be recouped as soon as practicable and to the extent permitted by law
so they can be available for other purposes.

ETA’s RESPONSE

In response to the draft report, the Assistant Secretary for Employment and Training
stated that ETA disagrees with OIG’s conclusion and expects performance to
significantly increase following an initial lag during the standard start-up phase of the
grants. ETA has put in place measures to monitor progress and provide technical
assistance to help ensure success for grantees at risk of not meeting their outcomes.
Furthermore, ETA suggested that when assessing the financial status of the grants,
obligations should be used as a primary indicator in addition to expenditures. Regarding
unexpended grant funds, ETA refers to OMB’s memorandum dated
September 15, 2011, stating that ETA has obligated all of its Recovery Act funds and
does not intend to return any money to the U.S. Treasury. ETA’s intention is that all
funds will be expended by September 30, 2013, as required by OMB. If a grantee has
not expended all Recovery Act funds by September 30, 2013, those funds will be
reclaimed. ETA’s response is included in its entirety in Appendix D.

OIG CONCLUSION

ETA did not provide evidence to support its assertion that grantees will effectively use
the funds and deliver targeted employment outcomes by the end of the grant periods.
With time periods elapsed on training grants from approximately 50 to 75 percent, and
non-training grants nearing completion or completed, performance outcomes remain
low. The use of expenditures along with performance outcomes depicts an accurate
snapshot of the current status of the green jobs program. While the effort to assist
grantees with technical assistance is a positive step, we remain concerned with the slow
pace of meeting performance targets. Finally, we note that OMB’s recent memo also
directed Agencies to accelerate the spending of remaining Recovery Act discretionary
grant funds while achieving core programmatic objectives. We believe this guidance is
consistent with the conclusions and recommendations in our report.

Where appropriate, we made technical clarifications in the report based on ETA’s
response to the draft report.



                                            4                Recovery Act: Green Jobs Program
                                                                  Report No. 18-11-004-03-390
                                                  U.S. Department of Labor – Office of Inspector General



RESULTS AND FINDINGS


Objective 1 — How has ETA defined green jobs?

       The definition ETA used for green jobs is jobs associated with products and
       services that use renewable energy resources, reduce pollution, and conserve
       natural resources.

The definition used by ETA to award grants was in compliance with the requirements of
the Recovery Act because it was derived from the Green Jobs Act of 2007 that covered
the seven Green Job industries, and broadly included jobs that clean and enhance our
environment. Not all green jobs so defined are new or unique occupations. Some green
jobs build upon existing occupations. For example, existing skills are modified to
prepare workers for careers in the energy efficiency, renewable energy sectors and for
other green jobs, such as power plant operators; electrical engineers; heating,
ventilating and air conditioning (HVAC) mechanics and installers; roofers and
construction managers.

For purposes of these grants, Employment and Training Administration (ETA) defined
energy efficiency and renewable energy as follows: 1) Energy Efficiency – programs
aimed at mitigating the use of energy, reducing harmful emissions, and decreasing
overall energy consumption; and 2) Renewable Energy – electric energy generated
from solar, wind, biomass, landfill gas, ocean (including tidal, wave, current, and
thermal), geothermal, municipal solid waste, or new hydroelectric generation capacity
achieved from increased efficiency or additions of new capacity at an existing
hydroelectric project.

In addition to the Green Jobs Act of 2007, the definition used by ETA to award Green
Jobs grants was derived from the Energy Policy Act of 2005, and information obtained
from ETA-funded Occupational Information Network (O*NET), 3 a database of
occupational requirements and worker attributes. (For definitions, see the Background
section of the report.) The definition covered the seven industries required by the
Recovery and Workforce Investment Acts.

Green Jobs training grants were awarded in the following areas:

    		 State Energy Sector Partnership (SESP) provides participants technical and
        occupational skills in the green jobs industries through state workforce
        investment boards in partnership with state and local agencies;



3
  O*NET is a database of occupational requirements and worker attributes. It describes occupations in
terms of the skills and knowledge required on how the work is performed, and typical work settings. It can
be used by businesses, educators, job seekers, human resource professionals, and the publicly funded
Workforce Investment System to help meet the talent needs of our competitive global economy.

                                                    5                 Recovery Act: Green Jobs Program
                                                                           Report No. 18-11-004-03-390
                                          U.S. Department of Labor – Office of Inspector General



   		 Pathways out of Poverty (Pathways) was for projects that provide training and
       placement services as a pathway out of poverty and into employment; and

   		 Energy Training Partnership (ETP) was to assist workers impacted by national
       energy and environmental policy, individuals in need of updated training related
       to Green Jobs industries, and unemployed workers.

Grants were also awarded to develop labor market information, and build capacity
through purchasing equipment, developing curriculum and hiring additional staff.

ETA did not specify the percentage of funds or number of grants that would be awarded
for each sector within the energy efficiency and renewable energy industries. Our
analysis of a statistically selected sample of 40 training grants disclosed that the
majority of the proposed training was in 1) energy-efficient building, construction, and
retrofit industries; and 2) renewable electric power industries. Figure 1 provides
examples of occupations and tasks pertaining to the seven Green Jobs industries and
the number of sampled grantees who proposed training in each of the seven sectors.




                                           6                 Recovery Act: Green Jobs Program
                                                                  Report No. 18-11-004-03-390
                                                           U.S. Department of Labor – Office of Inspector General




Figure 1: Examples of Occupations and Tasks Pertaining to the Seven Green Jobs Industries
                                                                                      Number
                                                                                            of
                                                                                     Sampled
                                                                                    Grantees
                                                                                   Proposing
Industry            Tasks                    Occupations                            Training *
1. 	 Energy-efficient 	   1. Air sealing                    1.   Weatherization specialist
     building,            2. Insulation installation        2.   Green building carpenter
     construction and     3. Structural retrofitting and    3.   Green building facilities manager
     retrofits               repair                         4.   Insulation workers
                          4. Solar panel installation 

                             and maintenance 
                                                                34
2. Renewable electric     1. Manufacturing and              1. Solar, wind and Geo-thermal
   power                     installing components of          assemblers
                             renewable energy industry      2. Solar voltaic manufacturing technicians
                             equipment                      3. Electricians, plumbers, and construction
                                                               laborers as solar installers
                                                            4. Sheet metal, composite/ fiberglass
                                                               technicians, welders, machinists for
                                                               products to support renewable energy
                                                               industry                                       25
3. Energy efficient 	     1. Alternative fuel vehicles      1. Hybrid and electric auto technician
   and advance drive         production                     2. Electric auto/truck battery technician
   train vehicle          2. Servicing and operations       3. Alternative fuel automotive production
                             of these vehicles                 workers                                         7
4. 	 Biofuels 	           1. Operations of a sump           1. Biofuels collection technician
                             pump vehicle and oil           2. Biofuels rendering technician
                             tanker truck
                          2. Collection of vegetable oil
                          3. Distillation of oil such as
                             the separation of oil to
                             generate bio-diesel
                             products                                                                         10
5. 	 Deconstruction and 	 1. Deconstruct buildings or       1.   Deconstruction technician
     materials use           recyclable products            2.   Lead abatement technician
     industry             2. Separate and condense          3.   Material Handler
                             waste materials                4.   Quality Control Assistant
                          3. Operate pallet jacks, 	        5.   Waste Processor
                             compression machine,           6.   Forklift Operator
                             and forklift                                                                      8
6. Energy efficiency      1. Conduct energy audits of       1. Energy Auditor
     assessment              buildings, building            2. Testing, adjusting and balancing
                             systems and process               technician of HVAC systems
                             systems                        3. Energy Raters
                          2. Test, analyze and balance
                             Heating, Ventilating, and
                             Air Conditioning (HVAC)
                             systems                                                                          19
7. 	 Manufacturers        1. Read product work orders       1.
                                                           Sheet Metal Worker
     using                   and plan work sequence         2.
                                                           Welder
     environmentally      2. Operate machinery              3.
                                                           Machine operator
     sustainable          3. Inspect work for defects       4.
                                                           Computer Numerical Control operator
     processes and           and trouble-shoot             for manufacturing processes
     materials               problems with machinery    5. Material Handler
                                                        6. Quality Control Technician                         11
* Grantees have proposed training in more that one sector.




                                                            7                    Recovery Act: Green Jobs Program
                                                                                      Report No. 18-11-004-03-390
                                                   U.S. Department of Labor – Office of Inspector General



Objective 2 — What is the status of funds expended, and how have grant funds
              been used?

         Of the $490.1 million of grants awarded, $162.8 million (33 percent) had been
         spent while 73 percent of the grant periods had elapsed as of June 30, 2011.

ETA awarded grants totaling $490.1 million through three training programs and two
non-training programs, and retained the remaining $9.9 million for services such as
program administration and technical assistance. From the funds awarded, $435.4
million was for training, $48.9 million for labor market information, and $5.8 million to
develop capacity. The purpose and principle of the Recovery Act was “to assist those
most impacted by the recession,” and to expend funds “as quickly as possible
consistent with prudent management.” Although ETA obligated $490.1 million, grantees
only reported expenditures of $162.8 million (33 percent) of the amounts awarded while
73 percent — a disproportionately greater amount — of the grant periods had already
elapsed 4. Moreover, training grants expenditures for the most recent quarter has
decreased. For the quarter ending June 30, 2011, grantees reported expenditures of
$18 million (4 percent) of the $435.4 million awarded. However, for the prior two
quarters grantees reported expenditures of $36.9 million (8 percent) and $31.7 million (7
percent). As of June 30, 2011, $327.3 million remained unexpended. This low level of
expenditure is consistent with the slow pace of serving and placing workers into green
jobs. See Exhibit 1 for Grant Awards, Expenditures and Training Outcomes for All
Grants as of June 30, 2011.

Training Grants

The main focus of the Green Jobs program was to prepare individuals for careers in
Green Jobs industries through three separate training areas: SESP, Pathways and
ETP. Overall, the three areas received combined funding of $435.4 million and have
reported expenditures of $126.1 million (29 percent) of the amount awarded while 61
percent of the grant periods had elapsed as of June 30, 2011.

      		 SESP grants were awarded to state workforce investment boards to provide
          participants the technical and occupational skills necessary to obtain industry
          recognized credentials.

      		 Pathways proposed to provide training and placement services to individuals who
          are living below or near the poverty level to provide a pathway into employment.

      		 ETP grants were to provide training and placement services in the energy
          efficiency and renewable energy industries for workers impacted by national
          energy and environmental policy. It provided services to individuals in need of



4
    The grant period elapsed represents the weighted average of periods elapsed for sampled grants.

                                                     8                Recovery Act: Green Jobs Program
                                                                           Report No. 18-11-004-03-390
                                           U.S. Department of Labor – Office of Inspector General



        updated training related to the energy efficiency and renewable energy industries
        and unemployed workers.

Specific information about the amount awarded, expended and the time elapsed for
each of the three areas follow in Figure 2.

Figure 2: Awards, Expenditures, and Time Elapsed for Training Grants
                          Amount            Reported Percentage of       Percentage
                         Awarded        Expenditures     Grant Award        of Time
Grant Programs          (millions)          (millions)      Expended        Elapsed

SESP                       $187.9                $24.5           13%             47%

Pathways                    147.7                 57.5           39%             71%
ETP                          99.8                 44.1           44%             75%
Total                      $435.4            $126.1              29%             61%

The current rate that grantees have reported expending funds has decreased from the
two prior quarters. For the quarter ending June 30, 2011, grantees reported
expenditures of $18 million, or 4 percent (16 percent annualized rate) of the $435.4
million awarded. However, for the prior two quarters grantees reported expenditures of
$36.9 million, or 8 percent and $31.7 million, or 7 percent (30 percent average
annualized rate).

Non-Training Grants

ETA awarded non-training grants to provide State labor market information and build
the capacity for Green Jobs training. Non-Training grants have combined funding of
$54.7 million and reported expenditures of $36.7 million (67 percent) of the amount
awarded. The non-training grants awarded in December 2009, include State Labor
Market Information (State LMI) and Green Capacity Building (Green Capacity) grants.
As of July 15, 2011, 36 out of 47 (77 percent) of non-training sampled grants had
modifications extending the period of performance by an average of 5 months. As of
June 30, 2011, time period elapsed factoring in these extensions was 95 percent, while
67 percent of the grant award had been expended. Proposed deliverables and reported
status for sampled State LMI and Green Capacity grants are described in Exhibits 2 and
3. For a comparison of non-training grant awards, reported expenditures, and time
elapsed, see Figure 3.




                                             9                Recovery Act: Green Jobs Program
                                                                   Report No. 18-11-004-03-390
                                            U.S. Department of Labor – Office of Inspector General




Figure 3: Grant Awards, Expenditures, and Time Elapsed for Non-Training Grants
                           Amount           Reported Percentage of       Percentage
                          Awarded       Expenditures     Grant Award        of Time
Grant Programs           (millions)         (millions)     Expended         Elapsed
State LMI                     $48.9              $31.5           64%            88%
Green Capacity                 5.8                5.2             90%            100%

Total                        $54.7             $36.7              67%             95%


State LMI grants were 18-month grants which were scheduled to end by May 2011.
However, 20 of the 24 sampled grants received modifications in order to meet grant
deliverables, extending the period of performance an average of 5 months, spanning
from June 30 to December 31, 2011. Based on interviews conducted in early 2011,
according to three of the six regional officials, some training grantees stated that the
results of labor market information were needed to help identify the demand for green
jobs so training in those areas could be enhanced. Although grantees had established
areas of training in their proposals, it would be helpful had the results from the State LMI
be disseminated quickly for grantees to take advantage of market information regarding
training and be able to revise training where necessary. Extending these grants has
further delayed the dissemination of labor market information that grantees need in
order to improve training to enhance performance outcomes for green jobs.

While Green Capacity grants were 12-month grants originally scheduled to end by
November 2010, 16 of 23 (70 percent) of the sampled grantees in this area had
received grant modifications extending their period of performance an average of 5
months, spanning from December 31, 2010 to May 31, 2011. According to grantees’
quarterly narrative progress reports, grant modifications to extend the grant periods
were necessary to meet grant deliverables. As a result, the purchase of equipment,
curriculum development and the hiring of additional staff to build the capacity of the
green jobs program were delayed.

Objective 3 — To what extent have ETA and grantees reported achieving
              performance targets for training and placement of workers, and
              employment retention?

        ETA and grantees have reported achieving limited performance targets for
        serving, placing and retaining workers; and risk not delivering targeted outcomes
        timely.

More than 2 years after the Recovery Act was signed and with 61 percent of the training
grant periods elapsed, grantees reported serving 52,762 (42 percent) of the targeted
124,893 participants, and placing 8,035 (10 percent) of the targeted 79,854 participants.
Moreover, grantees have reported 1,336 participants (2 percent) of the targeted 69,717
participants have retained employment for at least 6 months. It should be noted that the
rates at which grantees are achieving their performance goals have shown increases

                                             10                Recovery Act: Green Jobs Program
                                                                    Report No. 18-11-004-03-390
                                                     U.S. Department of Labor – Office of Inspector General



from December 31, 2010 to June 30, 2011. For the latest three quarters 5, grantees
reported participants that completed training were 5, 7, and 11 percent; and participants
that entered employment were 1, 3, and 5 percent. However, with 61 percent of the
training grant periods elapsed, and only 10 percent of participants entered employment,
it does not show that they have gained much ground. At this rate, training programs are
at risk of not delivering targeted outcomes by the end of the grant periods. ETA could
not demonstrate that grantees were on target to meet grant outcomes, nor was there a
plan to ensure that they could. With no evidence to support grantees were on target to
meet outcomes, grantees may not assist those most impacted by the recession and
achieve performance outcomes such as placements within the time limits set by grant
agreements. (See Figure 4)


                 Figure 4: Proposed vs. Reported Outcomes for All Training
                      Grants with 61 Percent of Grant Period Elapsed
                                    as of June 30, 2011
                                                                                         124,893
                   Served
                                                       52,762

                                                                                      115,395
       Enrolled in Training
                                                     46,627
                                                                             96,658
       Completed Training
                                            26,142
                                                                    79,854
      Entered Employment
                                    8,035
          Training-Related                                 61,003
            Employment              6,662
                                                                69,717
    Employment Retention
                                  1,336

                              0      20,000 40,000 60,000 80,000 100,000 120,000 140,000
                                                     Number of Participants
                                            Reported Outcomes         Proposed Outcomes



Grantees proposed serving 124,893 participants and reported serving 52,762 (42
percent). Of the 52,762 participants served, grantees reported that 20,818 (39 percent)
were incumbent workers. These incumbent workers were individuals who already have
jobs and enrolled in training in order to retain their jobs, obtain new work, or otherwise
upgrade their skills, and are generally not reflected in employment outcomes. ETA could
not identify how many incumbent workers grantees planned to serve, because grantees


5
    The three quarters used were December 31, 2010, March 31, 2011, and June 30, 2011.

                                                      11                 Recovery Act: Green Jobs Program
                                                                              Report No. 18-11-004-03-390
                                           U.S. Department of Labor – Office of Inspector General



were not required to provide incumbent worker projections. However, ETA requires
grantees to report the number of incumbent workers served.

While grantees proposed that 96,658 participants would complete training and 79,854
participants would be placed into employment, they have reported completing the
training of 26,142 (27 percent) and placing 8,035 participants (10 percent) into
employment. Of participants placed, 6,662 received training-related employment.
According to interviews conducted early in 2011 with regional officials, grantees
expressed concerns that green jobs had not materialized and job placements into
unsubsidized employment had been much less than expected. In addition, the poor
economic conditions have been a concern of the grantees.

The rates at which grantees are achieving their performance goals have increased. For
the quarters ending December 31, 2010, March 31, 2011 and June 30, 2011, grantees
reported participants that completed training were 5, 7, and 11 percent of the targeted
96,658 participants; and participants that entered employment were 1, 3, and 5 percent
of the targeted 79,854 participants. However, with 61 percent of the training grant
periods elapsed, and only 10 percent of participants entered employment, it does not
show that they have gained much ground.

Grantees proposed employment retention of 69,717 participants. As of June 30, 2011,
grantees have reported 1,336 participants (2 percent) have retained employment for at
least 6 months, more than 2 years after the Recovery Act was signed and 17 months
after the grants were awarded. The low retention rate may be attributed in part to the
timing of placement. For participants placed in the quarter ending June 30, 2011,
retention information will not be available until the quarter ending December 31, 2011.
Still, the very small percentage of participants (2 percent) actually retained in jobs more
than 6 months over the 2 years of the Recovery Act so far, is a trend that calls into
doubt ETA’s ability to achieve significant placement of workers into stable green jobs.

ETA awarded the green job grants, but it was up to the grantees to determine demand
and the areas of training. However, we noted 11 out of 40 training grants (28 percent)
did not contain evidence of market demand. This was further complicated by the fact
that State LMI grants were to collect, analyze and disseminate labor market information
pertaining to Green Jobs demand; however, results are still pending. Overall, grantees
may face the risk of not delivering targeted outcomes timely.

Training Grant Outcomes

Overall, training grantees reported limited performance targets achieved. Training grant
outcomes for the three programs are as follows in Figure 5:




                                            12                Recovery Act: Green Jobs Program
                                                                   Report No. 18-11-004-03-390
                                            U.S. Department of Labor – Office of Inspector General




   Figure 5: Targeted and Reported Outcomes for Training Grants as of June 30, 2011
                                                                  Entered in
                           Enrolled                                Training-
   Grant                          in Completed        Entered       Related Employment
   Program        Served Training      Training Employment Employment            Retention

   SESP
    Targeted:     62,844     58,933     49,536         42,817          28,554          37,998
    Reported:     13,546     13,218      6,870          2,067           1,955             157
    Achieved:       22%        22%        14%             5%              7%              0%

   Pathways
    Targeted:     25,460     20,751     14,822         13,121          10,979          10,442
    Reported:     15,639     11,954      5,802          2,553           1,905             360
    Achieved:       61%        58%        39%            19%             17%              3%

   ETP
    Targeted:     36,589     35,711     32,300         23,916          21,470          21,277
    Reported:     23,577     21,455     13,470          3,415           2,802             819
    Achieved:       64%        60%        42%            14%             13%              4%

   All Training Grants
    Targeted:     124,893   115,395     96,658         79,854          61,003          69,717
    Reported:      52,762    46,627     26,142          8,035           6,662           1,336
    Achieved:        42%       40%        27%            10%             11%              2%

Of the three training programs, SESP goals were to complete training for 49,536 and
place 42,817 participants into employment. However, with 47 percent of the grant
periods having elapsed, grantees reported 6,870 participants (14 percent) having
completed training, and 2,067 participants (5 percent) having been placed into
employment.

Pathways goals were to complete training for 14,822 and place 13,121 participants into
employment. However, with 71 percent of the grant periods having elapsed, grantees
reported 5,802 participants (39 percent) having completed training, and 2,553
participants (19 percent) were placed into employment.

ETP goals were to complete training for 32,300 and place 23,916 participants into
employment. However, with 75 percent of the grant periods having elapsed, grantees
reported 13,470 participants (42 percent) having completed training and 3,415
participants (14 percent) being placed into employment.

Monitoring

As of June 30, 2011, grantees reported limited performance outcomes. ETA officials
stated that there was no linear relationship between grant periods elapsed and grant
expenditures and outcomes, but indicated that they expect performance to significantly
increase over time due to an initial lag during the start-up phase of a grant. However,
ETA could not demonstrate that grantees were on target to meet grant outcomes

                                             13                 Recovery Act: Green Jobs Program
                                                                     Report No. 18-11-004-03-390
                                                 U.S. Department of Labor – Office of Inspector General



despite the slow start. Furthermore, training Solicitations for Grant Applications required
applicants provide projections and track outcomes for various categories, i.e.
participants served, trained and entered employment. However, we found that 12 out of
97grants (12 percent) did not provide projections for one or more of these outcome
categories. Without these projected outcomes, ETA could not fully measure grantee
performance or hold grantees accountable.

While ETA performed quarterly desk reviews, ETA’s on-site monitoring was limited. For
FY 2010 and through July 2011, only 17 of the 87 sampled grantees received on-site
monitoring. According to interviews conducted, early in 2011 regional officials indicated
that they were concerned there may be budget constraints that will prevent them from
conducting planned on-site monitoring in FY 2011. Although, Green Capacity grants
were scheduled to end in November 2010, ETA only performed on-site monitoring at 1
of the 23 grantees selected in the sample.

ETA officials stated technical assistance is provided to grantees. In February 2011, ETA
implemented the Recovery Act Technical Assistance Plan, which included steps to
support the success of green jobs program. ETA initiated a system to identify grantees
that were slow to expend their grant funds or meet performance outcomes. The system
is a needs assessment tool for use in determining the level of need for technical
assistance, and prioritizing those needs. While the effort to assist grantees is a positive
step, we are concerned with the slow pace of meeting performance targets. The
performance period end date for a majority of the training grants is January 2012, or 7
months from the reporting period used in this report of June 30, 2011 6. At this point,
there is no evidence that grantees will effectively use the funds and deliver targeted
employment outcomes by the end of the grant periods.

OIG identified ETA’s potential problems with monitoring in an audit report 7 issued
September 30, 2010. The report stated that funds provided by the Recovery Act to ETA
and used to monitor the green and health care grants would expire on
September 30, 2010. As a result, ETA planned to assign monitoring of the 244
Recovery Act grants to existing non-Recovery Act staff, but these employees already
had full workloads. The report recommended ETA take actions to continue to identify
and prioritize workloads and funding levels to ensure the agency can adequately
monitor these grants.




6
 For Pathways and ETP that make up the majority (65 percent) of the grants, the grants’ end dates are
January 2012. For SESP grants the end date is January 2013.
7
 Recovery Act: Employment and Training Administration Grant Issuance And Monitoring Policies And
Procedures For Discretionary Grants Including Green Jobs Are Comprehensive But Funding Challenges
Threaten The Quality Of Future Monitoring Activities

                                                  14                Recovery Act: Green Jobs Program
                                                                         Report No. 18-11-004-03-390
                                          U.S. Department of Labor – Office of Inspector General



RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training evaluate the
Green Jobs program; and in so doing, obtain an estimate of funds each grantee will
realistically spend given the current demand for green job-related skills and the job
market for green jobs. Any of the remaining $327.3 million of funds determined not to be
needed should be recouped as soon as practicable and to the extent permitted by law
so that they can be available for other purposes.

We appreciate the cooperation and courtesies that ETA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit




                                          15                 Recovery Act: Green Jobs Program
                                                                  Report No. 18-11-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






              16                Recovery Act: Green Jobs Program
                                     Report No. 18-11-004-03-390
             U.S. Department of Labor – Office of Inspector General




Exhibits 





             17                 Recovery Act: Green Jobs Program
                                     Report No. 18-11-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              18                Recovery Act: Green Jobs Program
                                     Report No. 18-11-004-03-390
                                                                                   U.S. Department of Labor – Office of Inspector General



                                                                                                                         Exhibit 1
  Grant Awards, Expenditures, and Training Outcomes for All Grants as of June 30, 2011

                                                                                                              Entered in
                                                                                                               Training-
                          Awards &    Proposed/                      Enrolled   Completed        Entered         Related      Employment
No.   Grantee Name     Expenditures    Reported        Served     in Training     Training    Employment     Employment         Retention

SESP Grants (34 grants in total)
1    Alabama Department of Economic and Community Affairs
             Award:        $6,000,000 Proposed:           2,100          1,800        1,442          1,150             975             900
      Expenditures:        $1,622,595  Reported:            656            656          324             32              19               0
2    Alaska Department of Labor & Workforce Development
             Award:         3,600,000 Proposed:             700            700          665           599              539             539
      Expenditures:           386,809  Reported:            223            223          201           136              136              41
3    Arizona Department of Economic Security
             Award:         6,000,000 Proposed:           1,648          1,648        1,502          1,118           1,083             942
      Expenditures:           330,778  Reported:          1,049            989          300            131             129              14
4    Arkansas Workforce Investment Board/Department of Workforce Services
             Award:         4,866,479 Proposed:           2,800          2,240        1,792          1,523           1,344           1,371
      Expenditures:           934,815  Reported:            538            538          177              6               5               0
5    Colorado Department of Labor and Employment
             Award:         5,998,050 Proposed:           1,200          1,200          830           775              760             713
      Expenditures:           227,654  Reported:            833            833          501           421              421              16
6    Commonwealth of Massachusetts, Executive Office of Labor and Workforce Development
             Award:         5,973,657 Proposed:           1,379          1,379        1,164           772              681             659
      Expenditures:         1,746,210  Reported:            801            798          542           136              128              14
7    Commonwealth of Pennsylvania, Department of Labor & Industry
             Award:         6,000,000 Proposed:           1,379          1,061        1,061          1,061    Not specified   Not specified
      Expenditures:         1,000,606  Reported:            657            656          272             74               63              19
8    Connecticut Employment and Training Commission
             Award:         3,360,000 Proposed:             895            895          813           551              486             441
      Expenditures:           836,754  Reported:            201            201          176            71               71               0
9    Kentucky Education and Workforce Development Cabinet
             Award:         4,740,457 Proposed:             620            620          560           503              469             444
      Expenditures:           847,934  Reported:            185            185           66             5                4               0




                                                                  19                                  Recovery Act: Green Jobs Program
                                                                                                           Report No. 18-11-004-03-390
                                                                                     U.S. Department of Labor – Office of Inspector General



                                                                                                                  Entered in
                                                                                                                   Training-
                              Awards & Proposed/                      Enrolled    Completed         Entered          Related     Employment
No.   Grantee Name        Expenditures    Reported         Served  in Training      Training     Employment      Employment        Retention
10    Hawaii Department of Labor and Industrial Relations
                Award:        6,000,000 Proposed:            1,300       1,243          1,172             625    Not specified            586
         Expenditures:          397,033   Reported:            550         524            409               5                3              0
11    Idaho Department of Labor
                Award:        5,991,184 Proposed: Not specified          1,418            569            315*             356             315
         Expenditures:        1,280,388   Reported:            422         422            103              12              11               0
12    Illinois Department of Commerce and Economic Opportunity
                Award:        6,000,000 Proposed:            1,836       1,836          1,694           1,310           1,310           1,305
         Expenditures:          520,942   Reported:            203         202             19              11              11               0
13    Indiana Department of Workforce Development
                Award:        6,000,000 Proposed:            2,500       2,500          2,190           2,140           2,075           1,940
         Expenditures:          268,903   Reported:            219         218            154              27              26               0
14    Iowa Workforce Development
                Award:        5,997,000 Proposed: Not specified Not specified    Not specified   Not specified   Not specified   Not specified
         Expenditures:          400,368   Reported:            214         214              53               0               0               0
15    Kansas Department of Commerce
                Award:        5,999,890 Proposed:            1,580       1,316          1,053            824*             927             824
         Expenditures:          284,511   Reported:            206         205             79               3               1               0
16    Maryland Department of Labor, Licensing and Regulation
                Award:        5,793,183 Proposed:            2,265       2,265          1,833           1,714           1,415           1,484
         Expenditures:        1,156,316   Reported:            641         641            313               0               0               0
17    Michigan Department of Energy, Labor & Economic Growth
                Award:        5,819,999 Proposed:            1,282       1,137   Not specified          1,052    Not specified            986
         Expenditures:          720,810   Reported:            444         444            150              30               29              6
18    Minnesota Department of Employment and Economic Development
                Award:        6,000,000 Proposed:            1,495       1,495          1,196             897             628             718
         Expenditures:          534,410   Reported:            452         450            242              45              44               1
19    Missouri Division of Workforce Development
                Award:        6,000,000 Proposed:              810         810            635             525             505             475
         Expenditures:          943,502   Reported:            222         222            184              31              30               0
20    Nebraska Department of Labor
                Award:        4,839,511 Proposed:              950         867            737             351             329             315
         Expenditures:          289,941   Reported:            281         281            237              26              24               0



                                                                   20                                    Recovery Act: Green Jobs Program
                                                                                                              Report No. 18-11-004-03-390
                                                                                       U.S. Department of Labor – Office of Inspector General



                                                                                                                  Entered in
                                                                                                                   Training-
                             Awards & Proposed/                         Enrolled    Completed         Entered        Related      Employment
No.   Grantee Name        Expenditures    Reported        Served     in Training      Training     Employment    Employment         Retention
21    Nevada Department of Employment, Training and Rehabilitation
               Award:         6,000,000 Proposed:           7,125          7,125          6,289          5,557             732           5,238
       Expenditures:            147,408   Reported:           375            355            346             57              55               4
22    New Jersey Department of Labor and Workforce Development
               Award:         6,000,000 Proposed:           3,412          3,412          3,073        2,311**    Not specified          2,311
       Expenditures:            147,263   Reported:           261            261              0              0                0              0
23    New Mexico Department of Workforce Solutions
               Award:         5,999,989 Proposed:           3,125          2,500          2,000         1,440*           1,800           1,440
       Expenditures:             82,240   Reported:            36             36              0              0               0               0
24    North Carolina Department of Commerce, Division of Workforce Development
               Award:         5,976,512 Proposed:           1,137          1,137            998          733**             783             733
       Expenditures:          1,415,887   Reported:           465            460            182            67               64               0
25    Oregon State of Education Department of Community Colleges and Workforce
               Award:         5,383,568 Proposed:           1,247          1,247          1,060           898              811             848
       Expenditures:          1,672,026   Reported:           620            620            132           108              107               5
26    South Dakota Department of Labor
               Award:         2,500,000 Proposed:             400            300            285           270              257             270
       Expenditures:          1,107,267   Reported:           227            101             29             9                0               0
27    State of California Employment Development Department
               Award:         6,000,000 Proposed:           1,200          1,200            960           960              900             840
       Expenditures:          1,062,921   Reported:           259            227             42            40               38               0
28    State of Ohio
               Award:         6,000,000 Proposed:           1,800          1,600          1,500          655**             200             655
       Expenditures:             30,338   Reported:            29             29              0              0               0               0
29    State of Oklahoma
               Award:         6,000,000 Proposed:           1,200          1,200          1,100          1,050           1,000             950
       Expenditures:            401,242   Reported:           542            540            217            133             133               0
30    Utah Department of Workforce Services
               Award:         4,600,000 Proposed:           1,400          1,400   Not specified       1,108**             955           1,108
       Expenditures:            767,466   Reported:           107            104               0             0               0               0
31    Washington State Workforce Training and Education Coordinating Board
               Award:         5,973,635 Proposed:           5,446          5,174          4,915          4,771           4,731           4,022
       Expenditures:          1,144,955   Reported:           816            813            683            257             256              37



                                                                     21                                   Recovery Act: Green Jobs Program
                                                                                                               Report No. 18-11-004-03-390
                                                                                        U.S. Department of Labor – Office of Inspector General



                                                                                                                   Entered in
                                                                                                                    Training-
                            Awards & Proposed/                           Enrolled    Completed       Entered          Related      Employment
No.   Grantee Name      Expenditures    Reported         Served       in Training      Training   Employment      Employment         Retention
32    Wisconsin Department of Workforce Development
               Award:        6,000,000 Proposed:           4,508            4,206         2,944           2,650           2,503           2,120
        Expenditures:          131,178  Reported:             14               14            14               0               0               0
33    Workforce West Virginia
               Award:        6,000,000 Proposed:           2,082            2,002         1,749           1,568               0           1,465
        Expenditures:        1,335,951  Reported:            501              487           452             117              73               0
34    Wyoming Department of Workforce Services
               Award:        4,495,704 Proposed:           2,023     Not specified        1,755           1,041   Not specified           1,041
        Expenditures:          315,487  Reported:            297              269           271              77               74              0
Subtotals for SESP grants:
              Award:    $187,908,818 Proposed:           62,844            58,933        49,536         42,817           28,554          37,998
      Expenditures:       $24,492,908 Reported:          13,546            13,218         6,870          2,067            1,955             157

Pathways Grants (38 grants in total)
35   Alternative Opportunities, Inc.
              Award:         $2,308,200 Proposed:           200               200           200           180**             160             180
       Expenditures:          $911,594  Reported:            99                99            79             28               10               0
36   Better Family Life, Inc.
              Award:          3,305,493 Proposed:         1,000               900           783            700              700             525
       Expenditures:          2,003,126 Reported:           894               482           297            113              112              25
37   Boley Centers, Inc.
              Award:          2,300,678 Proposed:           225               150           127            125               80             100
       Expenditures:            966,422 Reported:           149               113            45             25               15               6
38   Citrus Levy Marion Regional Workforce Development Board, Inc.
              Award:          2,985,175 Proposed:           665               665           556            556              556             516
       Expenditures:          1,198,539 Reported:           344               341            81             80               37               1
39   City of Minneapolis
              Award:          4,000,000 Proposed:           500               500           400            300              210             240
       Expenditures:          3,003,025 Reported:           586               580           400            196              146              59
40   Central New York Works, Inc.
              Award:          3,715,931 Proposed:         1,000               750           488            366              293             146
       Expenditures:            491,227 Reported:           852                56            23             11               11               0




                                                                      22                                   Recovery Act: Green Jobs Program
                                                                                                                Report No. 18-11-004-03-390
                                                                                  U.S. Department of Labor – Office of Inspector General



                                                                                                             Entered in
                                                                                                              Training-
                              Awards & Proposed/                    Enrolled   Completed       Entered          Related      Employment
No.   Grantee Name        Expenditures      Reported    Served   in Training     Training   Employment      Employment         Retention
41    Community College of Philadelphia
               Award:          3,184,428 Proposed:        250           250           225            203              195             162
         Expenditures:           759,156    Reported:     177           177           100             36               20               4
42    Consortium for Worker Education
               Award:          4,000,000 Proposed:        500           448           378            270              188             184
         Expenditures:           995,177    Reported:     273           246            42             26               17               0
43    East Harlem Employment Services, Inc.
               Award:          4,728,419 Proposed:       3,639        1,819         1,258            881              818             557
         Expenditures:         1,914,562    Reported:    1,144        1,103           541            143               71               3
44    Eastern Maine Development Corporation
               Award:          2,109,088 Proposed:        150           135           110              90              65                  75
         Expenditures:           449,231    Reported:      96            51            19               5               4                   0
45    Florida State College at Jacksonville
               Award:          2,229,642 Proposed:        390           390           332            282              240             240
         Expenditures:           747,805    Reported:     140           139            53              0                0               0
46    Goodwill Industries International
               Award:          7,303,634 Proposed:       1,300          997           764            621              571             467
         Expenditures:         2,781,340    Reported:    1,221          930           566            256              181              59
47    Grand Rapids Community College
               Award:          4,000,000 Proposed:       1,250        1,080           464            302              151             227
         Expenditures:         1,220,621    Reported:      432          262           116             73               42              15
48    It's My Community Initiative
               Award:          4,000,000 Proposed:        236           236           214            190                5                  75
         Expenditures:           995,870    Reported:     264           108            62             29               29                   0
49    Jobs for the Future, Inc.
               Award:          7,997,936 Proposed:       1,130        1,100           997            910              848             732
         Expenditures:           802,526    Reported:      982          930           309            153              134              14
50    Lehigh Valley Workforce Investment Board, Inc.
               Award:          4,000,000 Proposed:        400           225           100              75              70                  65
         Expenditures:           967,694    Reported:     498           145            21              14              14                   0
51    Los Angeles Community College District
               Award:          4,000,000 Proposed:        925           925           878            667              600             527
         Expenditures:           420,493    Reported:     295           134            22             20               20               0



                                                                 23                                  Recovery Act: Green Jobs Program
                                                                                                          Report No. 18-11-004-03-390
                                                                                           U.S. Department of Labor – Office of Inspector General



                                                                                                                      Entered in
                                                                                                                       Training-
                              Awards & Proposed/                           Enrolled    Completed         Entered         Related      Employment
No.   Grantee Name        Expenditures      Reported           Served   in Training      Training     Employment     Employment         Retention
52    MDC, Inc.
               Award:          3,780,816 Proposed:                734          711             580            391              318             322
       Expenditures:           1,477,329    Reported:             344          340             134             23               17               0
53    Mi Casa Resource Center for Women, Inc.
               Award:          3,633,195 Proposed:                500          500             400            270               50             224
       Expenditures:           2,594,580    Reported:             656          457             425            139              125              20
54    Mott Community College
               Award:          3,662,403 Proposed:                300          200             170            160              140             130
       Expenditures:           1,306,523    Reported:             131          131              66             31               25               0
55    Moultrie Technical College
               Award:          3,753,579 Proposed:                360          324             260            208*             208             208
       Expenditures:           1,459,354    Reported:             108           85               0               0               0               0
56    National Association of Regional Councils
               Award:          7,994,999 Proposed:              1,000          800             600            500              500             500
       Expenditures:           3,425,356    Reported:             782          541             208            147              111               7
57    National Council of La Raza
               Award:          3,063,839 Proposed:                241          241             216            161              139             130
       Expenditures:           1,413,359    Reported:             190          177               7              0                0               0
58    Northern Rural Training & Employment Consortium
               Award:          4,000,000 Proposed:                615          554             443            431              420             345
       Expenditures:           2,113,176    Reported:             379          368             154            123              110              37
59    Opportunities Industrialization Centers of America, Inc.
               Award:          4,900,000 Proposed:              1,600        1,350    Not specified          1,066           1,066             853
       Expenditures:           1,949,867    Reported:             621          511              384            123              81              12
60    Pathstone Corporation
               Award:          8,000,000 Proposed:              1,200        1,176             660           616**             360             616
       Expenditures:           2,337,885    Reported:             602          455              25             22                4               0
61    Private Industry Council of Westmoreland/Fayette, Incorporated
               Award:          2,732,719 Proposed:                250          245             191            153              120             115
       Expenditures:           1,895,066    Reported:             433          372             141            112               88              26
62    Providence Economic Development Partnership
               Award:          2,489,111 Proposed:                300          240             225            180    Not specified             160
       Expenditures:             836,787    Reported:             146          146              76             33                17              4



                                                                        24                                    Recovery Act: Green Jobs Program
                                                                                                                   Report No. 18-11-004-03-390
                                                                                      U.S. Department of Labor – Office of Inspector General



                                                                                                                 Entered in
                                                                                                                  Training-
                            Awards & Proposed/                          Enrolled   Completed       Entered          Related      Employment
No.   Grantee Name      Expenditures      Reported          Served   in Training     Training   Employment      Employment         Retention
63    Roca,Inc.
               Award:       2,398,778 Proposed:                225          225           150            140              110                  98
        Expenditures:         821,824     Reported:            191          135            59             54               48                   0
64    SER - Jobs for Progress of the Texas Gulf Coast, Inc.
               Award:       3,122,554 Proposed:                400          400           360            340              320             300
        Expenditures:       1,189,454     Reported:            258          258           238             71               52               8
65    Southeast Community College Area
               Award:       2,331,278 Proposed:                400          400           220            190              110                  90
        Expenditures:         870,427     Reported:            217          205            67             33               13                   0
66    Southwest Housing Solutions Corporation
               Award:       4,000,000 Proposed:              1,200          425           410            360              320             310
        Expenditures:       2,321,503     Reported:            282          282           167             78               65               0
67    The WorkPlace, Inc.
               Award:       4,000,000 Proposed:                700          600           500            350              320             275
        Expenditures:       1,419,599     Reported:            477          364           287             70               43              11
68    West Hills Community College District
               Award:       3,000,000 Proposed:                300          300           210            147              126             115
        Expenditures:       1,937,495     Reported:            337          319           280            185              170              32
69    Western Iowa Tech Community College
               Award:       3,999,459 Proposed:                300          300           222            165              142             142
        Expenditures:       2,305,597     Reported:            300          267            74             21               18               0
70    White Earth Band of Chippewa
               Award:       3,086,817 Proposed:                240          240           100            30**              25                  30
        Expenditures:       1,178,869     Reported:            104           95            26               2               0                   0
71    Workforce Development Council of Seattle King County
               Award:       3,639,530 Proposed:                475          450           406            365              275             335
        Expenditures:       1,662,218     Reported:            274          273           152             78               55              17
72    Worksystems, Inc.
               Award:       4,000,000 Proposed:                360          300           225            180              160             126
        Expenditures:       2,315,831     Reported:            361          277            56              0                0               0
Subtotals for Pathways grants:
              Award:     $147,757,701 Proposed:             25,460        20,751       14,822         13,121           10,979          10,442
      Expenditures:       $57,460,507 Reported:             15,639        11,954        5,802          2,553            1,905             360



                                                                     25                                  Recovery Act: Green Jobs Program
                                                                                                              Report No. 18-11-004-03-390
                                                                                        U.S. Department of Labor – Office of Inspector General



                                                                                                                   Entered in
                                                                                                                    Training-
                              Awards & Proposed/                          Enrolled   Completed       Entered          Related         Employment
No.  Grantee Name         Expenditures     Reported         Served     in Training     Training   Employment      Employment            Retention
ETP Grants (25 grants in total)
73   Austin Electrical Joint Apprenticeship Training Committee
               Award:        $4,842,424 Proposed:             1,100          1,100          950           504**             504                 504
       Expenditures:         $1,860,253    Reported:          1,393          1,393          442             73               18                  29
74   Blue Green Alliance
               Award:         5,000,000 Proposed:             2,063          2,063        1,650           1,238           1,000               1,000
       Expenditures:          2,994,160    Reported:          1,133          1,130          983             228             205                  16
75   Broward County Minority Builders Coalition
               Award:         3,280,656 Proposed:             1,000            900          700            700              600                 600
       Expenditures:          1,336,271    Reported:            351            351          304            119               65                   6
76   California Joint Labor Management Cooperation Committee
               Award:         5,000,000 Proposed:             2,192          2,192        2,082         1,592**           1,592               1,592
       Expenditures:          2,393,480    Reported:          1,009          1,009          827            375              375                 221
77   Central Vermont Community Action Council, Inc.
               Award:         4,846,195 Proposed:             2,542          2,542        2,397         1,127**           1,127               1,127
       Expenditures:          1,622,509    Reported:          1,366          1,270        1,218            948              921                 281
78   Community Housing Partners Corporation
               Award:         3,865,480 Proposed:               380            350          320            250              200                 200
       Expenditures:          2,000,288    Reported:            479            432          245            160              134                   3
79   Communications Workers of America National Education and Training Trust
               Award:         3,969,056 Proposed:             1,000          1,000        1,000            420    Not specified       Not specified
       Expenditures:          1,612,940    Reported:            830            367           59              0                    0                0
80   East Central Intergovernmental Association - Business Growth, Inc.
               Award:         2,060,250 Proposed:               392            392          344            310              283                 283
       Expenditures:            552,166    Reported:            265            265          245             95               51                  38
81   Healthcare Advancement Program, Inc.
               Award:         4,637,551 Proposed:             3,520          3,472        3,420         2,852**           2,852               2,852
       Expenditures:          1,665,888    Reported:          1,363            371            0               0               0                   0
82   Heritage Health Foundation
               Award:         1,408,601 Proposed:               120            120          102              90              84                  84
       Expenditures:            632,885    Reported:            427            148          112              52              26                   7
83   Institute for Career Development, Inc.
               Award:         4,658,983 Proposed:             2,000          1,900        1,200           240**             240                 240
       Expenditures:          2,167,114    Reported:            540            538          271             47               18                   0


                                                                      26                                   Recovery Act: Green Jobs Program
                                                                                                                Report No. 18-11-004-03-390
                                                                                         U.S. Department of Labor – Office of Inspector General



                                                                                                                     Entered in
                                                                                                                      Training-
                               Awards & Proposed/                              Enrolled  Completed       Entered        Related      Employment
No.   Grantee Name        Expenditures         Reported         Served      in Training    Training Employment      Employment         Retention
84    International Training Institute for the Sheet Metal and Air Conditioning Industry
               Award:          4,995,188 Proposed:                1,500           1,500       1,482          930*             930              930
        Expenditures:          1,332,179       Reported:            304             304         287             7               7                0
85    International Transportation Learning Center
               Award:          5,000,000 Proposed:                3,640           3,640       3,276         3,095           3,095            2,912
        Expenditures:          1,718,787       Reported:          1,464           1,464       1,429             0               0                0
86    Labor’s Community Action, Inc.
               Award:          3,604,162 Proposed:                1,913           1,817       1,530         1,071             856              856
        Expenditures:          2,440,151       Reported:          1,970           1,947         560            21              14               11
87    Memphis Bioworks Foundation
               Award:          2,931,103 Proposed:                  450             395         314           247             192              182
        Expenditures:          1,795,166       Reported:            465             412         134            26              23                3
88    Montana Electrical Joint Apprenticeship and Training Council
               Award:          5,000,000 Proposed:                2,475           2,475       2,450         2,230           2,007            2,007
        Expenditures:          2,743,470       Reported:          2,138           2,138       2,129             0               0                0
89    National Ironworkers and Employers Apprenticeship Training and Journeyman Upgrading Fund
               Award:          1,943,931 Proposed:                  510             510         510 Not specified   Not specified    Not specified
        Expenditures:          1,101,589       Reported:            441             441         437           280               22               41
90    Northwest Energy Efficiency Council
               Award:          3,876,171 Proposed:                  875             750         675           473             405              405
        Expenditures:          2,036,850       Reported:            620             605         354            70              63                1
91    Ohio Electrical Labor Management Cooperative Committee
               Award:          4,826,073 Proposed:                1,400           1,400       1,288       1,125**           1,125            1,125
        Expenditures:          2,930,948       Reported:          1,972           1,972         663           433             401               46
92    Oregon Manufacturing Extension Partnership
               Award:          5,000,000 Proposed:                1,734           1,734       1,672           638             542              542
        Expenditures:            993,507       Reported:          1,257           1,249         207            23              23                0
93    SER Metro Detroit, Jobs for Progress, Inc.
               Award:          4,298,673 Proposed:                  264             240         216           192             144              144
        Expenditures:          2,332,847       Reported:            191             191         127            64              52               16
94    The Providence Plan
               Award:          3,720,000 Proposed:                2,075           1,775       1,600         1,600             800              800
        Expenditures:          1,197,000       Reported:          1,045           1,024         841           190             189               18



                                                                      27                                    Recovery Act: Green Jobs Program
                                                                                                                 Report No. 18-11-004-03-390
                                                                                     U.S. Department of Labor – Office of Inspector General



                                                                                                                 Entered in
                                                                                                                  Training-
                             Awards & Proposed/                        Enrolled   Completed         Entered         Related      Employment
No.   Grantee Name        Expenditures     Reported      Served     in Training     Training     Employment     Employment         Retention
95    Thomas Shortman Training Scholarship and Safety Fund
               Award:         2,802,269 Proposed:          2,000          2,000          1,900       1,900**             1,900            1,900
        Expenditures:         1,394,891    Reported:       1,624          1,624          1,256             8                 8                0
96    United Auto Workers-Labor Employment and Training Corporation
               Award:         3,200,000 Proposed:            725            725           550            440              400              400
        Expenditures:         1,407,914    Reported:         313            267            81             18               10                0
97    Utility Workers Union of America, AFL-CIO
               Award:         4,993,922 Proposed:            719            719           672            652              592              592
        Expenditures:         1,876,820    Reported:         617            543           259            178              177               82
Subtotals for ETP grants:
               Award:      $99,760,688 Proposed:         36,589          35,711       32,300         23,916           21,470          21,277
      Expenditures:        $44,140,073 Reported:         23,577          21,455       13,470          3,415            2,802             819

State Labor Market Information (30 grants in total)
98     Hawaii Department of Labor and Industrial Relations
               Award:       $1,247,343 Proposed:           -             -           -               -               -                -
         Expenditures:      $1,051,500    Reported:
99     Iowa Workforce Development
               Award:        1,172,614 Proposed:           -             -           -               -               -                -
         Expenditures:         935,816    Reported:
100 State of Idaho
               Award:        1,250,000 Proposed:           -             -           -               -               -                -
         Expenditures:         556,336    Reported:
101 Kentucky Education and Workforce Development Cabinet
               Award:        1,250,000 Proposed:           -             -           -               -               -                -
         Expenditures:       1,206,169    Reported:
102 Missouri Department of Economic Development
               Award:        1,227,192 Proposed:           -             -           -               -               -                -
         Expenditures:       1,015,724    Reported:
103 Employment Security Commission of North Carolina
               Award:          946,034 Proposed:           -             -           -               -               -                -
         Expenditures:         592,449    Reported:




                                                                    28                                   Recovery Act: Green Jobs Program
                                                                                                              Report No. 18-11-004-03-390
                                                                                  U.S. Department of Labor – Office of Inspector General



                                                                                                              Entered in
                                                                                                               Training-
                            Awards & Proposed/                      Enrolled   Completed       Entered           Related     Employment
No.   Grantee Name      Expenditures     Reported        Served  in Training     Training   Employment       Employment        Retention
104   New Jersey Department of Labor and Workforce Development
               Award:       1,249,995 Proposed:          -            -           -               -               -                -
       Expenditures:          111,316    Reported:
105   New Mexico Department of Workforce Solutions
               Award:       1,250,000 Proposed:          -            -           -               -               -                -
       Expenditures:          712,267    Reported:
106   Minnesota Department of Employment and Economic Development
               Award:       1,155,488 Proposed:          -            -           -               -               -                -
       Expenditures:          531,501    Reported:
107   New York State Department of Labor
               Award:       1,112,207 Proposed:          -            -           -               -               -                -
       Expenditures:          612,120    Reported:
108   Ohio Department of Job And Family Services
               Award:       1,015,700 Proposed:          -            -           -               -               -                -
       Expenditures:          298,884    Reported:
109   State of Oregon Employment Department
               Award:       1,250,000 Proposed:          -            -           -               -               -                -
       Expenditures:          572,542    Reported:
110   Puerto Rico Department of Labor and Human Resources
               Award:       1,248,388 Proposed:          -            -           -               -               -                -
       Expenditures:           86,521    Reported:
111   South Carolina Department of Commerce
               Award:         763,175 Proposed:          -            -           -               -               -                -
       Expenditures:          439,155    Reported:
112   Tennessee Department Of Labor & Workforce Development
               Award:         765,340 Proposed:          -            -           -               -               -                -
       Expenditures:          620,221    Reported:
113   Washington State Employment Security Department
               Award:       1,060,910 Proposed:          -            -           -               -               -                -
       Expenditures:          916,428    Reported:
114   Alaska Department of Labor & Workforce Development
               Award:         800,000 Proposed:          -            -           -               -               -                -
       Expenditures:          413,555    Reported:



                                                                 29                                   Recovery Act: Green Jobs Program
                                                                                                           Report No. 18-11-004-03-390
                                                                                    U.S. Department of Labor – Office of Inspector General



                                                                                                                Entered in
                                                                                                                 Training-
                             Awards & Proposed/                       Enrolled   Completed       Entered           Related     Employment
No.   Grantee Name        Expenditures    Reported         Served  in Training     Training   Employment       Employment        Retention
115   Alabama Department of Industrial Relations
               Award:         1,145,210 Proposed:          -            -           -               -               -                -
        Expenditures:           231,202   Reported:
116   Arizona Department of Economic Security
               Award:         1,211,045 Proposed:          -            -           -               -               -                -
        Expenditures:           889,407   Reported:
117   State of California/Employment Development Department
               Award:         1,250,000 Proposed:          -            -           -               -               -                -
        Expenditures:           886,958   Reported:
118   Delaware Department of Labor
               Award:           889,404 Proposed:          -            -           -               -               -                -
        Expenditures:           592,932   Reported:
119   Florida Agency for Workforce Innovation
               Award:         1,250,000 Proposed:          -            -           -               -               -                -
        Expenditures:         1,250,000   Reported:
120   Georgia Department of Labor
               Award:         1,177,975 Proposed:          -            -           -               -               -                -
        Expenditures:           934,031   Reported:
121   Commonwealth of Pennsylvania, Department of Labor & Industry
               Award:         1,250,000 Proposed:          -            -           -               -               -                -
        Expenditures:         1,144,211   Reported:
122   Maryland Department of Labor, Licensing & Regulation
               Award:         4,000,000 Proposed:          -            -           -               -               -                -
        Expenditures:         3,998,191   Reported:
123   Indiana Department of Workforce Development
               Award:         4,000,000 Proposed:          -            -           -               -               -                -
        Expenditures:         1,879,390   Reported:
124   Vermont Department of Labor
               Award:         3,999,923 Proposed:          -            -           -               -               -                -
        Expenditures:         2,266,316   Reported:
125   Nevada Department of Employment, Training and Rehabilitation
               Award:         3,753,000 Proposed:          -            -           -               -               -                -
        Expenditures:         3,654,426   Reported:



                                                                   30                                   Recovery Act: Green Jobs Program
                                                                                                             Report No. 18-11-004-03-390
                                                                                          U.S. Department of Labor – Office of Inspector General



                                                                                                                      Entered in
                                                                                                                       Training-
                             Awards & Proposed/                           Enrolled     Completed        Entered          Related     Employment
No.   Grantee Name      Expenditures      Reported         Served      in Training        Training   Employment      Employment        Retention
126   Montana Department of Labor & Industry
               Award:        3,877,949 Proposed:            -               -               -             -               -                -
        Expenditures:        1,952,290    Reported:
127 State of Louisiana Office of Occupational Information Services, Research & Statistics Division
               Award:        2,279,393 Proposed:            -               -               -             -               -                -
        Expenditures:        1,070,527    Reported:
Subtotal State LMI grants:
              Award:       $48,848,285 Proposed:            -               -               -             -               -                -
      Expenditures:        $31,422,382 Reported:

Green Capacity Building (62 grants in total)
128 Arch Training Center, Inc.
             Award:            $94,255 Proposed:           -             -                 -              -               -                -
       Expenditures:           $94,255    Reported:
129 Community Action Partnership of Sonoma County
             Award:             85,910 Proposed:           -             -                 -              -               -                -
       Expenditures:            82,462    Reported:
130 San Gabriel Valley Conservation and Service Corps
             Award:             98,122 Proposed:           -             -                 -              -               -                -
       Expenditures:            98,122    Reported:
131 San Diego Imperial Counties Labor Council
             Award:            100,000 Proposed:           -             -                 -              -               -                -
       Expenditures:           100,000    Reported:
132 Goodwill Industries, Inc., Serving Eastern Nebraska and Southwest Iowa
             Award:             71,714 Proposed:           -             -                 -              -               -                -
       Expenditures:            69,367    Reported:
133 People Incorporated of Virginia
             Award:             42,793 Proposed:           -             -                 -              -               -                -
       Expenditures:            42,675    Reported:
134 Urban League of Broward County
             Award:            100,000 Proposed:           -             -                 -              -               -                -
       Expenditures:            88,820    Reported:




                                                                       31                                     Recovery Act: Green Jobs Program
                                                                                                                   Report No. 18-11-004-03-390
                                                                                   U.S. Department of Labor – Office of Inspector General



                                                                                                               Entered in
                                                                                                                Training-
                              Awards & Proposed/                     Enrolled   Completed       Entered           Related     Employment
No.   Grantee Name         Expenditures     Reported     Served   in Training     Training   Employment       Employment        Retention
135   Western New York Americorps Fund
               Award:           100,000 Proposed:        -             -           -               -               -                -
        Expenditures:             42,511    Reported:
136   Aletheia House
               Award:             70,736 Proposed:       -             -           -               -               -                -
        Expenditures:             63,912    Reported:
137   Youthbuild Lake County
               Award:           100,000 Proposed:        -             -           -               -               -                -
        Expenditures:           100,000     Reported:
138   Able-Disabled Advocacy, Inc.
               Award:           100,000 Proposed:        -             -           -               -               -                -
        Expenditures:           100,000     Reported:
139   Salt Lake Community College
               Award:             96,211 Proposed:       -             -           -               -               -                -
        Expenditures:             80,435    Reported:
140   Sacramento Local Conservation Corps
               Award:             92,820 Proposed:       -             -           -               -               -                -
        Expenditures:             80,956    Reported:
141   Florida Institute For Workforce Innovation, Inc.
               Award:           100,000 Proposed:        -             -           -               -               -                -
        Expenditures:           100,000     Reported:
142   Opportunity Advancement Innovation, Inc.
               Award:           100,000 Proposed:        -             -           -               -               -                -
        Expenditures:           100,000     Reported:
143   Coalition for Responsible Community Development
               Award:           100,000 Proposed:        -             -           -               -               -                -
        Expenditures:             95,670    Reported:
144   Springfield Urban League, Inc.
               Award:           100,000 Proposed:        -             -           -               -               -                -
        Expenditures:           100,000     Reported:
145   Easter Seals, Inc.
               Award:             99,956 Proposed:       -             -           -               -               -                -
        Expenditures:             74,720    Reported:



                                                                  32                                   Recovery Act: Green Jobs Program
                                                                                                            Report No. 18-11-004-03-390
                                                                                  U.S. Department of Labor – Office of Inspector General



                                                                                                              Entered in
                                                                                                               Training-
                              Awards & Proposed/                    Enrolled   Completed       Entered           Related     Employment
No.   Grantee Name       Expenditures     Reported      Served   in Training     Training   Employment       Employment        Retention
146   San Antonio Youth Centers
               Award:          100,000 Proposed:        -             -           -               -               -                -
       Expenditures:           100,000    Reported:
147   Youthbuild Boston, Inc.
               Award:          100,000 Proposed:        -             -           -               -               -                -
       Expenditures:           100,000    Reported:
148   Mojave Basin Youth Corps, Inc.
               Award:           83,455 Proposed:        -             -           -               -               -                -
       Expenditures:            12,197    Reported:
149   Pathways-Virginia, Inc.
               Award:          100,000 Proposed:        -             -           -               -               -                -
       Expenditures:            99,080    Reported:
150   Cobb Housing, Inc.
               Award:          100,000 Proposed:        -             -           -               -               -                -
       Expenditures:           100,000    Reported:
151   California Indian Manpower Consortium, Inc.
               Award:          100,000 Proposed:        -             -           -               -               -                -
       Expenditures:            39,574    Reported:
152   City of Peoria Workforce Development Department
               Award:          100,000 Proposed:        -             -           -               -               -                -
       Expenditures:            96,505    Reported:
153   Youth Conservation Corps
               Award:          100,000 Proposed:        -             -           -               -               -                -
       Expenditures:           100,000    Reported:
154   Southern Appalachian Labor School
               Award:           98,700 Proposed:        -             -           -               -               -                -
       Expenditures:            98,700    Reported:
155   American Youthworks
               Award:          100,000 Proposed:        -             -           -               -               -                -
       Expenditures:           100,000    Reported:
156   Youthbuild Mclean County
               Award:          100,000 Proposed:        -             -           -               -               -                -
       Expenditures:           100,000    Reported:



                                                                 33                                   Recovery Act: Green Jobs Program
                                                                                                           Report No. 18-11-004-03-390
                                                                                      U.S. Department of Labor – Office of Inspector General



                                                                                                                  Entered in
                                                                                                                   Training-
                              Awards & Proposed/                        Enrolled   Completed       Entered           Related     Employment
No.   Grantee Name       Expenditures     Reported         Served    in Training     Training   Employment       Employment        Retention
157   Portland Youthbuilders
              Award:            100,000 Proposed:           -             -           -               -               -                -
       Expenditures:            100,000   Reported:
158   Year One, Inc. dba Mile High Youth Corps
              Award:             99,855 Proposed:           -             -           -               -               -                -
       Expenditures:             96,038   Reported:
159   Episcopal Community Services of Maryland
              Award:             97,128 Proposed:           -             -           -               -               -                -
       Expenditures:             97,128   Reported:
160   Walker Montgomery Community Development Corporation
              Award:             75,000 Proposed:           -             -           -               -               -                -
       Expenditures:             74,219   Reported:
161   County of Kern
              Award:            100,000 Proposed:           -             -           -               -               -                -
       Expenditures:            100,000   Reported:
162   Women In Non Traditional Employment Roles
              Award:            100,000 Proposed:           -             -           -               -               -                -
       Expenditures:            100,000   Reported:
163   Apprenticeship and Nontraditional Employment For Women
              Award:            100,000 Proposed:           -             -           -               -               -                -
       Expenditures:            100,000   Reported:
164   Goodwill Industries of the Conemaugh Valley, Inc.
              Award:             99,524 Proposed:           -             -           -               -               -                -
       Expenditures:             99,524   Reported:
165   Arizona Women's Education and Employment, Inc.
              Award:            100,000 Proposed:           -             -           -               -               -                -
       Expenditures:            100,000   Reported:
166   Latin American Youth Center Youthbuild Public Charter School
              Award:            100,000 Proposed:           -             -           -               -               -                -
       Expenditures:             85,696   Reported:
167   Co-Opportunity, Inc.
              Award:             69,933 Proposed:           -             -           -               -               -                -
       Expenditures:                  0   Reported:



                                                                     34                                   Recovery Act: Green Jobs Program
                                                                                                               Report No. 18-11-004-03-390
                                                                                     U.S. Department of Labor – Office of Inspector General



                                                                                                                 Entered in
                                                                                                                  Training-
                              Awards & Proposed/                       Enrolled   Completed       Entered           Related     Employment
No.   Grantee Name        Expenditures      Reported       Served   in Training     Training   Employment       Employment        Retention
168   The Workplace, Inc.
               Award:             59,894 Proposed:         -             -           -               -               -                -
        Expenditures:             20,802    Reported:
169   Maui Economic Opportunity, Inc.
               Award:           100,000 Proposed:          -             -           -               -               -                -
        Expenditures:             87,905    Reported:
170   Comprehensive Community Solutions, Inc.
               Award:             97,868 Proposed:         -             -           -               -               -                -
        Expenditures:             96,050    Reported:
171   Cook Inlet Tribal Council, Inc.
               Award:             67,268 Proposed:         -             -           -               -               -                -
        Expenditures:             58,598    Reported:
172   City of Phoenix
               Award:           100,000 Proposed:          -             -           -               -               -                -
        Expenditures:           100,000     Reported:
173   Los Angeles Communities Advocating for Unity Social Justice
               Award:           100,000 Proposed:          -             -           -               -               -                -
        Expenditures:           100,000     Reported:
174   San Joaquin County Office Of Education
               Award:             70,000 Proposed:         -             -           -               -               -                -
        Expenditures:             70,000    Reported:
175   Indianapolis Private Industry Council, Inc.
               Award:           100,000 Proposed:          -             -           -               -               -                -
        Expenditures:             65,563    Reported:
176   Young Adult Development In Action, Inc.
               Award:           100,000 Proposed:          -             -           -               -               -                -
        Expenditures:           100,000     Reported:
177   Goodwill Industries International
               Award:           100,000 Proposed:          -             -           -               -               -                -
        Expenditures:             99,836    Reported:
178   Community Teamwork, Inc.
               Award:             77,585 Proposed:         -             -           -               -               -                -
        Expenditures:             77,585    Reported:



                                                                    35                                   Recovery Act: Green Jobs Program
                                                                                                              Report No. 18-11-004-03-390
                                                                                   U.S. Department of Labor – Office of Inspector General



                                                                                                               Entered in
                                                                                                                Training-
                              Awards & Proposed/                     Enrolled   Completed       Entered           Related     Employment
No.   Grantee Name         Expenditures     Reported     Served   in Training     Training   Employment       Employment        Retention
179   Old Colony Y
              Award:             100,000 Proposed:       -             -           -               -               -                -
        Expenditures:            100,000    Reported:
180   Youthbuild USA, Inc.
              Award:              78,047 Proposed:       -             -           -               -               -                -
        Expenditures:             35,979    Reported:
181   Blackfeet Tribal Business Council
              Award:              96,257 Proposed:       -             -           -               -               -                -
        Expenditures:             96,257    Reported:
182   Workforceconnections
              Award:              99,965 Proposed:       -             -           -               -               -                -
        Expenditures:             99,965    Reported:
183   Northeast Parent & Child Society, Inc.
              Award:             100,000 Proposed:       -             -           -               -               -                -
        Expenditures:             35,506    Reported:
184   Telamon Corporation
              Award:             100,000 Proposed:       -             -           -               -               -                -
        Expenditures:             97,631    Reported:
185   Improved Solutions For Urban Systems, Inc.
              Award:             100,000 Proposed:       -             -           -               -               -                -
        Expenditures:            100,000    Reported:
186   Connection Training Services
              Award:             100,000 Proposed:       -             -           -               -               -                -
        Expenditures:             95,587    Reported:
187   Experience Works, Inc.
              Award:             100,000 Proposed:       -             -           -               -               -                -
        Expenditures:             97,602    Reported:
188   National Institute for Metalworking Skills, Inc.
              Award:              93,000 Proposed:       -             -           -               -               -                -
        Expenditures:             93,000    Reported:
189   Milwaukee Area Workforce Investment Board
              Award:              98,364 Proposed:       -             -           -               -               -                -
        Expenditures:             98,364    Reported:



                                                                  36                                   Recovery Act: Green Jobs Program
                                                                                                            Report No. 18-11-004-03-390
                                                                                       U.S. Department of Labor – Office of Inspector General



                                                                                                                   Entered in
                                                                                                                    Training-
                           Awards &       Proposed/                      Enrolled   Completed       Entered           Related     Employment
No.   Grantee Name     Expenditures        Reported          Served   in Training     Training   Employment       Employment        Retention
Subtotals for Green Capacity grants:
              Award:      $5,814,360      Proposed:           -            -           -               -               -                -
      Expenditures:       $5,238,796      Reported:

Summary of Award and Expenditures for all Grants in Audit Universe
                                                                                                                        Award    Expenditures
Training (97 Grants in Total)
   State Energy Sector Partnership Subtotals (34 Grants in Total)                                                $187,908,818     $24,492,908
   Pathways out of Poverty Subtotals (38 Grants in Total)                                                         147,757,701      57,460,507
   Energy Training Partnership Subtotals (25 Grants in Total)                                                      99,760,888      44,140,073
      Training Grant Subtotal:                                                                                   $435,427,207    $126,093,488

Non-Training (92 Grants in Total)
  State Labor Market Information Subtotals (30 Grants in Total)                                                   $48,848,285      $31,422,385
  Green Capacity Subtotals (62 Grants in Total)                                                                     5,814,360        5,238,796
     Non-Training Grant Subtotal:                                                                                 $54,662,645      $36,661,181

Training Grant & Non-Training Grant Totals (189 Grants in Total)                                                 $490,089,852    $162,754,669

* The number for “Entered Employment” was not provided by ETA. Therefore, the number proposed as
“Employment Retention” was used for consistency.
** The number for “Entered Employment” provided by ETA was less than the proposed “Employment
Retention”. As a result, the number proposed as “Employment Retention” was used.




                                                                      37                                   Recovery Act: Green Jobs Program
                                                                                                                Report No. 18-11-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






              38                Recovery Act: Green Jobs Program
                                     Report No. 18-11-004-03-390
                                                                                               U.S. Department of Labor – Office of Inspector General



                                                                                                                                                Exhibit 2
Proposed Deliverables and Reported Status for Sampled State LMI Grants as of June 30, 2011

                            Award       Amount
No.   Grantee Name         Amount     Expended     Proposed Deliverables                                  Summary Status of Reported Deliverables
                                                   Industry reports and white papers detailing the
                                                   methodology and findings of related labor market
                                                   research and results of the green jobs survey          All deliverables completed. Deliverables include a
                                                   (survey instrument & methodology report, green         comprehensive three-state regional green
                                                   market profile, green labor market profile, green      employment, education, and training survey of
                                                   jobs and training profile, green economy impact        10,000 employer, state-specific research on the
      Maryland                                     report, green workforce investment), MARC              green workforce and training providers, online
      Department of                                Green Consortium Portal (includes career               integration of the DC, MD and VA’s labor exchange
      Labor, Licensing                             information, competency models and job seeker          capabilities, and a state-of–the art regional green
1     & Regulation       $4,000,000   $3,998,191   guidance).                                             jobs portal.
                                                   Auto industry transformation study (in-depth
                                                   interviews, supply chain transformation research
                                                   (questionnaire, focus groups, interviews, analysis
                                                   of research), alternative career pathways
                                                   (employer survey, skill transferability analysis
                                                   using TORQ, job posting analysis using Help
                                                   Wanted Online tool), and skill gap analysis
                                                   (analysis using skills-based projections software).
                                                   Overall project deliverables: projected
                                                   employment estimates (green auto industry),
                                                   identification of new occupational requirements
                                                   including associated skills and occupations,
                                                   estimates of auto suppliers that will survive the
                                                   auto industry transformation and estimates of
                                                   those that will diversify, summary of training
                                                   requirements for occupations in the green auto
                                                   industry, skill gap analysis and skills projections
                                                   for green occupations, summary of career               Developed a specialized career guidance tool that
                                                   pathways for dislocated auto industry workers,         suggests alternative career pathways for
      Indiana                                      description of required training programs and          dislocated workers. Developed a tri-state training
      Department of                                curriculum, identification and analysis of currently   data base listing green and growing occupations
      Workforce                                    available green job openings, summary of green         for training programs. Completed detailed
2     Development        $4,000,000   $1,879,390   job wages.                                             analytical reports on auto industry transformation.




                                                                         39                                          Recovery Act: Green Jobs Program
                                                                                                                          Report No. 18-11-004-03-390
                                                                                                 U.S. Department of Labor – Office of Inspector General



                               Award       Amount
No.   Grantee Name            Amount     Expended     Proposed Deliverables                                Summary Status of Reported Deliverables
                                                      Literature review and synthesis, convene regional
                                                      conference, convene local industry expert panels,
                                                      compile data into a preliminary listing of green
                                                      jobs and industries (to be included in the Green
                                                      Jobs Portal), creation of electronic tools to code
                                                      green job vacancies, develop demand analysis         The initial grant identified eight deliverables.
                                                      and projections (current demand, short term          Grantee pursued activities for seven of them.
                                                      vacancy projections, list of skills and work         Continued testing of the “Green” definitions for
                                                      activities and education requirements, analysis of   refinements for phrases with green. Green
                                                      green job vacancies among green and non-green        company lists were expanded and augmented by
                                                      industries), tag green employers in InfoUSA          companies posting green jobs. New reporting
      Vermont                                         database, electronic and other dissemination tools   database structure was refined for the real time
      Department of                                   (including Green Job Banks)--Green Jobs Portal,      data. Work on the consumer guide to real time
3     Labor                 $3,999,923   $2,266,316   Web services tools, labor exchange support.          data. Work on the vacancy projections model.
                                                                                                           Completed final beta testing and approved Short
                                                                                                           Term Industry Projections (STIP) software.
                                                      New Projections Suite software platform, Skills-     Completed development of training narrative -
                                                      Based Projections tool, Occupational Descriptor      stage 3 edits for 11 STIP methods files. In process
      Nevada                                          module, comprehensive Projections Training           for inputs for STIP and report manager course.
      Department of                                   Program (capacity-building), plan for leveraging     Completed a SME review of the Projections Suite
      Employment,                                     current LMI infrastructure to sustain Projections    Help documentation. Began planning process for
      Training and                                    Training, plan for Projections track as national     development and launch of the online learning
4     Rehabilitation        $3,753,000   $3,654,426   training (LMI Institute).                            management system.
                                                                                                           Final drafts of 22 industry profiles were completed
                                                                                                           and are undergoing final review. Work on the 22
                                                                                                           industry profiles are nearing completion and
                                                                                                           awaiting green employment projections. The
                                                      Green job statutes and regulations for each state    industry and occupational green employment
      State of                                        (summary report), educational resources report,      projections have been completed. This will be
      Louisiana Office                                green jobs survey, current and projected green       merged with other projections. Final training
      of Occupational                                 jobs vacancies and estimates, development of         provider lists have been completed for each state.
      Information                                     career ladders/lattices/pathways, web-based tool     Three draft industry competency models for NAICS
      Services,                                       that houses information on skill                     sectors have been completed. Green Jobs
      Research &                                      requirements/training resources/wage                 Extractor software is still in progress. Website
5     Statistics Division   $2,279,393   $1,070,527   potential/career pathways.                           development still in progress.




                                                                           40                                         Recovery Act: Green Jobs Program
                                                                                                                           Report No. 18-11-004-03-390
                                                                                             U.S. Department of Labor – Office of Inspector General



                          Award       Amount
No.   Grantee Name       Amount     Expended     Proposed Deliverables                                  Summary Status of Reported Deliverables
                                                 Green jobs survey, green job vacancy survey,
                                                 energy and green job employment projections,
                                                 human capital supply side data analysis,
                                                 training/certification/licensure/skills catalogue,
                                                 web-based analytical tools, Idaho business
                                                 directory update, Idaho Comprehensive Green
                                                 Jobs Research Report, Idaho Career Information
                                                 System and into CAREERS enhancements,
                                                 online green job fairs, public services                Published green jobs report and issued press
                                                 announcement campaign, print/online/social             release. Published green job interviews: worked
                                                 networking campaign, Idaho Energy and Green            on developing green micro site and tested initial
                                                 Jobs Pay Posters, Idaho Green Jobs Workshop            ideas with local job seekers. Published green
6     State of Idaho   $1,250,000    $556,336    Series.                                                statutes.
                                                 Survey results (current estimated employment by
                                                 industry and occupation, short- and long-term
                                                 industry and occupational projections, OES wage
                                                 data, report on survey and research findings,
                                                 details regarding educational and training
                                                 resources (certifications and licensing information)
                                                 available related to green occupations, reports
                                                 (green career profiles, green occupational
                                                 outlook, green manufacturing industries profiles,
                                                 green industries in Kentucky), outreach (press
                                                 releases, podcasts, social networking/blog
      Kentucky                                   communication, pamphlets, presentations,
      Education and                              consultations with local elected officials), labor
      Workforce                                  supply database, analytical tool to guide training
      Development                                and reemployment resources toward demand               Green jobs survey information was released to the
7     Cabinet          $1,250,000   $1,206,169   occupations.                                           public and DOL ETA in August 2011.
                                                 Green Jobs employer survey (number and type of
                                                 green jobs by industry, number of green
                                                 businesses), follow-up surveys (green job growth,
                                                 impact of ARRA funds), short- and long-term            Contractor completed its development, installation,
      New Mexico                                 employment projections, publication (reports),         testing and integration of the Green Jobs landing
      Department of                              outreach presentations, online interactive career      page which lists Green occupational opportunities
      Workforce                                  planning programs, "Green Recovery                     and have mapping capabilities of available jobs in
8     Solutions        $1,250,000    $712,267    Workstation", Green Job Portal.                        NM.




                                                                      41                                           Recovery Act: Green Jobs Program
                                                                                                                        Report No. 18-11-004-03-390
                                                                                                U.S. Department of Labor – Office of Inspector General



                            Award       Amount
No.   Grantee Name         Amount     Expended     Proposed Deliverables                                   Summary Status of Reported Deliverables
                                                                                                           Eight deliverables were completed during he
                                                                                                           quarter. Ten deliverables are expected to be
                                                                                                           completed during the quarter ended September 30,
                                                                                                           2011. Published employment analysis, two green
                                                                                                           related articles, two website articles, and two blog
                                                   Labor market information research (current              posting. Completed data collections process for
                                                   employment estimates for green jobs, wages and          statewide survey of green jobs, completed nine
                                                   benefits, short- and long-term industry and             WorkKeys profiles and 10 WorkKeys occupational
                                                   occupational projections, identification of energy      reports. Completed one Green Career Pathway,
                                                   efficiency and renewable energy businesses and          completed coding of community college green
      State of Oregon                              green occupations), publications (10 stand-alone        courses and training programs. Published a Green
      Employment                                   reports, 12 special green jobs-related articles,        Training Performance System report, completed
9     Department         $1,250,000    $572,542    brochures), presentations.                              the integration of AutoCoder into WOMIS.
                                                                                                           Success of meeting the grant deliverable is
                                                                                                           contingent upon testing the prototype in a Web
                                                   California Green Economy Survey Report                  environment to ensure that green programs are
                                                   (employment estimates by industry, occupation           tagged and readily identifiable as “green”. Testing
                                                   and geographic area; list of energy efficiency and      of prototype training inventory system is underway.
                                                   renewable energy businesses), Green                     Collecting green training provider information and
      State of 
                                   Occupational Skills Research Report                     tracking green training programs continue.
      California/ 
                                (skill/competency requirements), Improving Skills       Updating training inventory data tables are
      Employment 
                                 Transference Report (skills assessment tool             underway. Developing green taxonomy to codify
      Development 
                                research & recommendation, online green training        green certificate or degree programs that do not
10    Department         $1,250,000    $886,958    inventory, feasibility study).                          have an existing 2010 CIP code.
                                                   Labor market research, green jobs survey results        The green jobs survey, a key deliverable, was
                                                   (employment, skills, credentials, certifications, and   completed. Two other deliverables – Green Jobs
      Florida Agency                               apprenticeships), employment projections, green         Portal, and greening of the Construction Workforce
      for Workforce                                jobs survey reports (industry, occupation, and          Development Center Labor supply/Demand
11    Innovation         $1,250,000   $1,250,000   region), and skills/certification list.                 Forecasting model were also completed.
                                                                                                           Six deliverables - inventory of green training
                                                                                                           capacity, economy-wide green employment
      Commonwealth                                 The project develops an automated career tool to        survey, listening sessions across Pennsylvania,
      of Pennsylvania,                             market green jobs to job seekers that will include      training needs assessment, job task analysis green
      Department of                                information on wages, career paths, and                 career tool, and green skills survey. Four of the six
12    Labor & Industry   $1,250,000   $1,144,211   education and certification requirements.               deliverables are complete.




                                                                         42                                           Recovery Act: Green Jobs Program
                                                                                                                           Report No. 18-11-004-03-390
                                                                                              U.S. Department of Labor – Office of Inspector General



                           Award       Amount
No.   Grantee Name        Amount     Expended     Proposed Deliverables                                  Summary Status of Reported Deliverables
                                                  Puerto Rico will identify green activity
                                                  characteristics and develop a system to make
                                                  information available on green industry
      Puerto Rico 
                               composition and projections; industry clusters and
      Department of 
                             economic data; academic skills requirements;           The survey phase was completed. The
      Labor and 
                                 academic, technical, and vocational courses,           Dissemination phase and the information system
      Human 
                                     degrees, licenses, and certifications; and job         development and Web page design contract were
13    Resources         $1,248,388     $86,521    openings.                                              awarded and are in process.
                                                  Green Workforce Study (5 reports for industry, 5       Published four additional volumes to baseline
                                                  reports for state and local areas, sectors study for   Hawaii’s Green Workforce report. The five volume
                                                  construction, high-tech and tourism), Preliminary      series contains content specific to green labor
                                                  Projection Estimates, Training Gap Assessment,         market information. Developed marketing and
                                                  LMI Dissemination and User Interface                   public relations strategies based on a program
                                                  Assessment, Web-based Workforce Development            brochure and branded materials. Helped co-
                                                  Information Portals, Labor Exchange and Rapid          sponsored a Green Workforce Development
      Hawaii 
                                    Reemployment Enhancement, Sectoral and Local           Conference & Expo Hosted an innovative “Green
      Department of 
                             Area Strategies, Capacity Building, Outreach and       Zone” at the state’s largest career and job fair. Co-
      Labor and 
                                 Awareness (press releases, town hall meetings,         sponsored a 30-minute TV show. Produced a 10
      Industrial 
                                conference presentation, green career and job fair     minute video showcasing green workforce
14    Relations         $1,247,343   $1,051,500   participation, etc.).                                  development. Participated in other events.
                                                                                                         Battelle Technology Partnership report was
                                                                                                         completed. It focuses on definition of state’s
                                                                                                         definition of green economy, global trends, State
                                                                                                         green output and jobs. State’s position on
                                                                                                         innovation for green economy, and strategic
                                                                                                         opportunities. A second deliverable was
                                                                                                         completed – Arizona Green Jobs survey Report.
                                                                                                         Research and analysis of green jobs vacancies in
                                                                                                         Arizona using Burning Glass Technologies Real-
                                                                                                         Time LMI data was completed. The final
      Arizona 
                                   Results from this project will include access to       deliverable – technical memo outlining the
      Department of 
                             training leading to industry recognized credentials,   differences between the methodologies and results
      Economic 
                                  certifications, or degrees specific to green           reported in the Green Jobs Survey report and the
15    Security          $1,211,045    $889,407    industries.                                            real –Time LMI job vacancy reports.




                                                                       43                                           Recovery Act: Green Jobs Program
                                                                                                                         Report No. 18-11-004-03-390
                                                                                              U.S. Department of Labor – Office of Inspector General



                            Award       Amount
No.   Grantee Name         Amount     Expended    Proposed Deliverables                                 Summary Status of Reported Deliverables
                                                  Green Jobs Survey Data (estimates of
                                                  businesses/workers engaged in renewable energy
                                                  generation, clean transportation, natural resource
                                                  conservation, pollution prevention and
                                                  environmental clean up activities; estimates of
                                                  workers that produce green-related products and
                                                  services; estimates of number of people in green
                                                  occupations; benefits offered to green workers,
                                                  green worker demographics; etc), green programs
                                                  added to ETP list, green jobs brochure,
      Georgia                                     information added to Georgia Career Information
      Department of                               System, green data added to Georgia Labor
16    Labor              $1,177,975   $ 934,031   Market Explorer, new green jobs portal.               June 2011 Performance Report not available
                                                                                                        Completed all deliverables. These include
                                                                                                        Inventory of Iowa registered apprenticeships in the
                                                                                                        Green Economy, Iowa Green Economy laborshed
                                                                                                        Studies Report, Green Economy Regulation and
                                                                                                        Incentive White Report. Sunopsis of Energy Sector
                                                                                                        Workforce Demographics /gender study, Green
                                                                                                        Economy Business Demand Occupational Survey
                                                  The labor supply portion of the project will use      Report, Green Economy Supply and demand
                                                  IWD’s data collection tools to develop a Human        analysis, Iowa Green Economy Human Capital
                                                  Capital Inventory of workers that will include:       Inventory, Auto Industry supply chain study, State
                                                  worker locations, income levels, education, skills,   Building Deconstruction and recycling inventory,
      Iowa Workforce                              experience and willingness to relocate or change      Links Web Portal to Iowa Works, Modify I-works
17    Development        $1,172,614    $935,816   to a Green Economy job.                               Labor Exchange system.
                                                  Comprehensive estimates of green job vacancies
                                                  in Minnesota, SOC code, across all industries.
                                                  Estimates of green employment by occupation,
                                                  industry, and region. List of green occupations
                                                  experiencing labor force shortages.
                                                  Comprehensive list of skill and education
      Minnesota 
                                 requirements for each green SOC-O*NET                 Wrote articles for Minnesota Economic Review and
      Department of 
                             occupation. Description of typical skill gaps in      Minnesota Economic Trends on Green jobs.
      Employment and 
                            green occupations. Estimates of median wage           Linked brochures, presentations and articles from
      Economic 
                                  offers in green jobs, by SOC occupation. A green      Iseek Green Careers as well as the DEED Green
18    Development        $1,155,488    $531,501   identifier for postings in the state job bank.        Jobs Website.




                                                                       44                                          Recovery Act: Green Jobs Program
                                                                                                                        Report No. 18-11-004-03-390
                                                                                           U.S. Department of Labor – Office of Inspector General



                           Award       Amount
No.   Grantee Name        Amount     Expended    Proposed Deliverables                                Summary Status of Reported Deliverables
                                                 2 surveys (1-labor supply information, 2-benefits
                                                 provided by employers); analysis of surveys
                                                 (report); current employment estimates in Green
                                                 Industries & occupations for state and regions;
                                                 short- and long-term green industry &
                                                 occupational projections; list of green businesses
      Alabama                                    in AL; skills assessment; occupation assessment
      Department of                              (including skill gaps); job vacancy estimates;
      Industrial                                 online labor exchange & data reporting application
19    Relations         $1,145,210    $231,202   (software).                                          June 2011 Performance Report not available.
                                                 Project deliverables will include an enhanced
                                                 green occupational profile and comparison            Deliverables include data feeds/web services,
                                                 reports, integrated data services to exchange        green flag integration, occupational search tool,
                                                 information with other state systems, enhanced       usability study, online leaning center, and analysis.
      Washington                                 and integrated workforce and economic                Requirements phase of all deliverables are
      State                                      monitoring and analytical tools, and an online       complete. Development phase is complete for four
      Employment                                 training resource to promote the understanding of    of the six deliverables. Testing phase complete for
      Security                                   workforce and economic concepts and the green        five of six deliverables. In process for the sixth
20    Department        $1,060,910    $916,428   economy.                                             deliverable.
                                                                                                      The grant partners completed a four-part report
                                                 The grantee will use project findings to develop a   based on research from the project. The Voinovich
                                                 green jobs curriculum, produce an Ohio green         School completed and delivered the green
                                                 jobs training directory, disseminate green career    pathways data base of green jobs educations
                                                 pathways modules and information through One         programs. The database has been integrated in
      Ohio Department                            Stops and WIA eligible training providers, and       the Ohio Bureau of Labor Market Information’s
      of Job and                                 develop new green jobs interfaces for the state      Career Exploration tool. Conducted five regional
21    Family Services   $1,015,700    $298,884   labor exchange system.                               Career Pathways forums.
                                                 Green job titles, employment, average wage,
                                                 current vacancies, short- and long-term
                                                 projections, educational requirements and
                                                 skills/certifications needed; HWOL research;
                                                 green jobs report detailing green industries and
                                                 occupations; online web tool designed to estimate
      Employment 
                               supply of human capital; summary of public
      Security

                                 educational resources the provide green courses      The project team completed data collection. The
      Commission of

                            and programs that lead to industry-recognized        research specialist and assistant began cleaning
22    North Carolina     $946,034     $592,449   credentials, certificates or degrees.                the data set.




                                                                      45                                         Recovery Act: Green Jobs Program
                                                                                                                      Report No. 18-11-004-03-390
                                                                                       U.S. Department of Labor – Office of Inspector General



                       Award       Amount
No.   Grantee Name    Amount     Expended    Proposed Deliverables                                Summary Status of Reported Deliverables
                                                                                                  Four of six deliverables are completed. The
                                                                                                  remaining two are in progress. Alaska’s Green
                                                                                                  Jobs Report and green jobs webpage went live.
                                                                                                  Green occupational information incorporated into
                                                                                                  Alaska’s career information delivery system was
                                                                                                  completed. Skills –based profiles of Alaska green
                                                                                                  jobs are in development. Green occupational
                                             Alaska will conduct labor market research and        information incorporated into Alaska’s career
      Alaska                                 deliver a wide variety of LMI products to better     ladder product. A report on Alaska’s green jobs
      Department of                          target education and training investments, leading   and industry produced from the results of green job
      Labor &                                to more informed public policies, and providing      survey of employers to be published in Alaska
      Workforce                              the ability to measure the impact of green           Economic Tends. Alaska Career Information
23    Development     $800,000    $413,555   economic investments.                                System has been completed.
                                                                                                  Completed a comprehensive Tennessee green
                                                                                                  jobs survey of 6,000 firms. Completed a
                                                                                                  supplemental survey with a portion of the 6,000
                                                                                                  firms to obtain more information on green jobs
                                                                                                  qualifications and requirements. Completed an
                                                                                                  impact studies on six groundbreaking green
                                                                                                  industry investments in Tennessee. Enhanced
                                             Green jobs survey (report, consultations with        Labor Exchange is being purchased and installed
      Tennessee                              partners and interested parties), enhanced online    and completion is expected September 2011.
      Department of                          self-service labor exchange module (added to The     Expect September 2011 publication on website for
      Labor &                                Source), an independent analysis of six large        using transferable skills analysis with auto-related
      Workforce                              investments in renewable energy/energy               workers to determine their potential to transfer to
24    Development     $765,340    $620,221   efficiency/related green job sectors.                green jobs.




                                                                  46                                         Recovery Act: Green Jobs Program
                                                                                                                  Report No. 18-11-004-03-390
                                                                                                    U.S. Department of Labor – Office of Inspector General



                                                                                                                                                     Exhibit 3
Proposed Deliverables and Reported Status for Sampled Green Capacity Grants as of June 30, 2011 1

                                Grant     Amount
    No.   Grantee Name         Award    Expended    Proposed Deliverables                                 Summary Status of Reported Deliverables

                                                    Modify existing YouthBuild curriculum and field
                                                    training to include five new modules in energy-
                                                    efficient building, construction, and retrofitting.
                                                    Develop a green construction career training
                                                    pathway that enables YouthBuild program               Water Efficiency, Energy & Atmosphere, Material &
                                                    graduates to enter into formal Registered             Resource and Indoor Environmental Quality Modules
          Urban League of                           Apprenticeships in the Housing Authority’s            all completed. Final Walk-Through and Certification /
     1    Broward County     $100,000     $88,820   STEP UP program.                                      Graduation completed

                                                    Produce updated curriculum and outreach               The program used funds during the past quarter to
                                                    materials reflecting the YouthBuild Goes Green        purchase 1 insulation blower for $13,891.47 and 1
          Western New                               initiative. Modify curriculum to include home         truck for $29,854. The purchases will be used to
          York AmeriCorps                           assessment and weatherization training for all        support the service projects and on site training of the
     2    Fund               $100,000     $42,511   YouthBuild participants.                              Department of Labor YouthBuild members.




                                                    Update YouthBuild career exploration
                                                    curriculum to include information about green
                                                    construction, energy efficiency, and
                                                    weatherization jobs. Update YouthBuild core
                                                    construction curriculum to include training in
                                                    green building techniques such as green
                                                    construction, energy efficiency, and                  Completed the deliverables as of May 31, 2011.
                                                    weatherization. Develop Green Jobs Career             These included building the South LA YouthBuild
                                                    Pathway, which will serve as a career ladder          Green Jobs program. Specifically, expanded the
          Coalition for                             pipeline to help YouthBuild graduates make a          Career Exploration Curriculum, Provide Professional
          Responsible                               smooth academic transition to green education         Development, Augment the Core Construction
          Community                                 and training certificate and degree programs at       Curriculum with “Green” Training, and Develop a
     3    Development        $100,000     $95,670   Los Angeles Trade Technical College.                  Green Jobs Pathway.




1
    All sampled Green Capacity grants have ended as of June 30, 2011.

                                                                            47                                           Recovery Act: Green Jobs Program
                                                                                                                              Report No. 18-11-004-03-390
                                                                                            U.S. Department of Labor – Office of Inspector General



                          Grant     Amount
No.   Grantee Name       Award    Expended    Proposed Deliverables                                Summary Status of Reported Deliverables
                                                                                                   Certifications awarded to students and staff include:
                                                                                                   1) OSHA 10, 2) Energy Efficiency Technician (2 week
                                                                                                   training at the Laborer’s Union training site) 3)
                                                                                                   Renovation Repair and Painting Certificate and 4)
                                                                                                   Green Facilities Maintenance, and 5) Sustainable
                                                                                                   Landscaping Certificate. Staff team updated the
                                                                                                   PACT curriculum to be green industry relevant.
                                                                                                   YouthBuild graduates will complete 2 week retrofitting
      YouthBuild                              Revise all curriculums to reflect the latest green   technician program at no cost with International
 4    Boston, Inc.     $100,000    $100,000   industry knowledge.                                  Laborers Union.
                                                                                                   Thirty eight participants successfully completed
                                              Enhance the existing YouthBuild program              curricula/course materials. One instructor was trained
      City of Peoria                          curriculum and hands-on training through             in capacity building. Forty six participants were
      Workforce                               incorporation of the NCCER module, “Your             trained by instructors at apprenticeship schools and
      Development                             Role in the Green Environment” and the Green         worksites. Forty eight participants received Green
 5    Department       $100,000     $96,505   Advantage study guide.                               Advantage certification.

                                                                                                   Grant is complete. Home Energy Rating System
                                              NCCER – Your Role in the Green Environment           training for staff (Fall/Spring 09-10), Home Energy
                                              curriculum, Home Energy Rating System                Rating System for students (Spring 2010), Home
      Youthbuild                              curriculum, Solar (Photovoltaic) Installation        Energy Rating System internships (Summer 2010),
 6    Mclean County    $100,000    $100,000   curriculum, Environmental Science curriculum.        Rater placement (Fall 2010).


                                                                                                   Grant activities ended May 31, 2011. To date, 150
                                                                                                   women have received the green curriculum training.
                                                                                                   This is 150 percent of the trainee goal for the grant.•
                                                                                                   Apprenticeship And Nontraditional Employment For
                                                                                                   Women and Helmets to Hardhats rolled out the
                                                                                                   Military Occupation Crosswalk project. and
                                                                                                   completed a “Recruiting and Retaining Women in
                                                                                                   Washington’s Apprenticeships” booklet for partners.
      Apprenticeship                                                                               This booklet gives practical tips to recruit, monitor,
      And                                     Revise existing curriculum to add the Green          evaluate and retain female apprentices, as well as
      Nontraditional                          Jobs curriculum developed by OTI; imbed this         links to resources. This booklet will be sustainable
      Employment For                          training within the core training for Construction   beyond this grant as it will be tied to future contractor
 7    Women            $100,000    $100,000   Readiness. Develop a video and website.              trainings.




                                                                     48                                            Recovery Act: Green Jobs Program
                                                                                                                        Report No. 18-11-004-03-390
                                                                                               U.S. Department of Labor – Office of Inspector General



                             Grant     Amount
No.   Grantee Name          Award    Expended    Proposed Deliverables                               Summary Status of Reported Deliverables
                                                                                                     Senior Certified Sustainability Professional Course
                                                                                                     has been completed. Instructional Design/ Curriculum
                                                                                                     Development have been completed. Cross
                                                                                                     referenced local labor markets with ONET
                                                                                                     information on In Demand Green Jobs. Trained 42
                                                 Develop a Local Green Jobs Resource Guide           trainers, support staff and program managerial staff
      Telamon                                    (LGJRG) including competency models and             on the modules. The modules were tested on 84 farm
 8    Corporation         $100,000     $97,631   career ladders inherent to the local economy.       workers meeting 98.8 percent of our goal of 85.
                                                                                                     Improved Solutions For Urban Systems, Inc. had
                                                                                                     over 75 Participants in the program. As of December
                                                                                                     2010, there were 48 participants still enrolled. Forty
                                                                                                     three participants have received certifications. Two
                                                                                                     participants have been placed in jobs. Plant &
                                                 Develop a competency-based curriculum for           Environmental Science program participants
      Improved                                   green collar job training in energy efficient and   landscaped two homes and two parks, and are
      Solutions For                              renewable energy careers, train participants in     currently working on construction of three homes,
      Urban Systems,                             one or greener collar areas leading to industry     each incorporating different energy efficiency and
 9    Inc.                $100,000    $100,000   recognized certifications and credentials.          renewable energy systems.


                                                                                                     Construction Firms contacted and surveyed. Solar
                                                                                                     Panel Installation Firms contacted and surveyed.
                                                                                                     Weatherization Firms contacted and surveyed. The
                                                                                                     training of 30 YouthBuild participants was completed
                                                                                                     in NCCER basic construction and green construction
                                                                                                     using the new curriculum. Thirty three new
                                                                                                     YouthBuild students are participating in the 2nd
                                                                                                     cohort and will be trained in green construction
                                                                                                     techniques in 2011. The Philadelphia Workforce
                                                                                                     Investment Board has prepared a report of the Hot
                                                 Update competency models, curriculum                Jobs in Philadelphia 2010. Connection Training
      Connection                                 materials and career ladders. Develop               Services has finished preparing its green construction
10    Training Services   $100,000     $95,587   outreach materials.                                 curriculum with NCCER national certification.




                                                                        49                                          Recovery Act: Green Jobs Program
                                                                                                                         Report No. 18-11-004-03-390
                                                                                               U.S. Department of Labor – Office of Inspector General



                             Grant     Amount
No.   Grantee Name          Award    Expended   Proposed Deliverables                               Summary Status of Reported Deliverables
                                                                                                    Two hundred and ninety four staff received Green
                                                                                                    Jobs Capacity Building training. Experience Works
                                                                                                    staff provided the training to 562 participant
                                                                                                    assistants. Developed training curriculum with the
                                                                                                    Council for Adult and Experiential Learning and
                                                                                                    preparing to train instructors to deliver training to
                                                                                                    State Directors and State Managers. Provided
                                                Create the Developing Green Industry Sector         “Developing Green Industry Sector Strategies for
                                                Strategies for Employment of Older Adults           Employment of Older Adults" webinar training to
                                                program and curricula. Deliverables will consist    directors and managers. A cumulative total of 856
                                                of a curriculum, student workbook, instructor       staff and Senior Care Subsidized Employment
      Experience                                guide and PowerPoint slides for use in              Program participant assistants received training in
11    Works, Inc.         $100,000    $97,602   webinars.                                           the green jobs curriculum.
                                                                                                    Modifications to PACT curriculum and RRCC
                                                                                                    curriculum are complete. Further modifications were
                                                                                                    made to incorporate the additional curriculum and
                                                                                                    resources made available through this grant.
                                                                                                    Instructors trained in this quarter: 1 staff trained as a
                                                                                                    trainer in OSHA 10-hour and OSHA 30-hour ; 1 staff
                                                                                                    trained and able to certify students in NCCER’s Your
                                                                                                    Role in the Green Environment; 1 staff trained as a
                                                                                                    BPI Building Analyst; 1 staff trained in Multi-Craft
                                                Modify existing construction curriculum and         Core Curriculum. Thirty two students participated in
                                                construction learning lab components to focus       the advanced training opportunities of solar
      Year One, Inc.                            primarily on green building techniques, and new     installation made possible through this grant. This
      dba Mile High                             green building curriculum. Add certification        fell slightly short of the projected goal of 36
12    Youth Corps          $99,855    $96,038   components and offer to students.                   YouthBuild participants receiving advanced training.




                                                                                                    All original workshops/trainings have occurred with
                                                                                                    an additional two courses in Weatherization I and II
                                                                                                    being offered through the no cost extension. All
                                                                                                    Weatherization 26 students and 2 staff received the
                                                                                                    PA Department of Labor Weatherization certification.
                                                                                                    Coordination with building partners on green capacity
      Goodwill                                  Curriculum modifications – by adding                building (weatherization; building materials
      Industries of the                         specialized training in the identified green        recovery/reuse) continues. Recovery/reuse and
      Conemaugh                                 construction-related occupations to the             weatherization techniques occur at all YouthBuild
13    Valley, Inc.         $99,524    $99,524   construction training already received.             Johnstown worksites.


                                                                       50                                           Recovery Act: Green Jobs Program
                                                                                                                         Report No. 18-11-004-03-390
                                                                                              U.S. Department of Labor – Office of Inspector General



                             Grant     Amount
No.   Grantee Name          Award    Expended   Proposed Deliverables                                Summary Status of Reported Deliverables
                                                                                                     The San Gabriel Valley Conservation and Service
                                                                                                     Corps entered into an agreement with our curriculum
                                                                                                     team to develop the Solar, Weatherization and
                                                                                                     Energy Audit curriculum. The curriculum has been
                                                                                                     completed as of March 31, 2011. We have secured
                                                                                                     the weatherization training materials. The solar
                                                                                                     panels and solar panel training equipment have been
                                                                                                     acquired. Three of our YouthBuild members have
                                                Develop a three-unit, 12-lesson curriculum in        completed solar and weatherization training. They
                                                solar energy, weatherization, and energy             are expected to begin assisting in the solar training of
                                                efficiency assessment that will offer participants   other participants. Also completed the construction of
      San Gabriel 
                             the opportunity to obtain college credit and         the training kits for the solar panels and are prepared
      Valley

                                  national certifications. Develop hands-on,           for the youth to install the panels once the training
      Conservation and 
                        learning lab curriculum in energy auditing,          commences. The curriculum has been completed.
14    Service Corps        $98,122    $98,122   weatherization, and energy efficiency auditing.      Status of deliverables is at 83.3 percent.


                                                Develop curriculum, trainee materials, and
                                                trainer materials in green deconstruction,
                                                environmental/Brownfield remediation, and
                                                weatherization and energy conservation.
                                                Develop a written report on available green          The CCS Green Team approved the deconstruction
                                                sector jobs in the Rockford region, including a      curriculum and training program offered by The Re-
                                                comprehensive listing of occupational                Use People of America. CCS will be working with this
      Comprehensive                             requirements and available education and             group in finalizing its Green Jobs Website, and
      Community                                 training programs. Develop and launch a              making policy recommendations on green jobs to the
15    Solutions, Inc.      $97,868    $96,050   website to track green jobs.                         Boone-Winnebago Workforce Investment Board.

      Episcopal                                 Develop Hybrid Deconstruction Curriculum             The creation of a Green Deconstruction/Construction
      Community                                 Materials, Expanded Job Opportunities,               Manual, providing a model curriculum for distribution,
      Services of                               Workplace Certifications, and Career Ladder          is in the process of being completed within the next
16    Maryland             $97,128    $97,128   developing in Energy Efficiency Occupations.         quarter.




                                                                       51                                           Recovery Act: Green Jobs Program
                                                                                                                         Report No. 18-11-004-03-390
                                                                                           U.S. Department of Labor – Office of Inspector General



                           Grant     Amount
No.   Grantee Name        Award    Expended   Proposed Deliverables                              Summary Status of Reported Deliverables
                                                                                                 All 3 energy training and installations were completed
                                                                                                 on the homes that were audited in the beginning of
                                                                                                 the summer. The components were energy audit,
                                                                                                 solar energy and wind energy. The students finished
                                                                                                 all three areas where they learned about each
                                                                                                 component all together the students received 120
                                                                                                 hours of hands on experience and classroom work.
                                                                                                 The instructors were from the Montana State
                                                                                                 University – Technology of Great Falls, Great Falls
                                                                                                 Montana. The instructors received their training from
                                              Install one solar and one wind alternative         Madison Area Technical College and the Midwest
                                              energy system each year into residential homes     Renewable Energy association. The college had
      Blackfeet Tribal                        on the Blackfeet reservation as an integral        faculty and adjunct faculty where the instructors
17    Business Council   $96,257    $96,257   element of the YouthBuild coursework.              received their training.
                                                                                                 Over the past year, several program enhancements
                                                                                                 were instituted and additional supports that would
                                                                                                 facilitate the participating youths’ successful
                                                                                                 engagement in the program and improve their future
                                                                                                 prospects. These include: the co-location of an AOD
                                                                                                 (Alcohol and Other Drug) Counselor at the site for
                                                                                                 four hours per week, provision of health services in
                                                                                                 the form of having a school nurse on site for 3 hours
                                                                                                 per week; establishment of a mentoring component;
                                                                                                 provision of a parenting class on site once a week for
                                                                                                 youth who are parents and martial arts classes.
                                                                                                 Beginning on May 20th, the International Brotherhood
                                              Create career pathways in energy efficiency        of Electrical Workers Local #551 began delivering
                                              and renewable energy/solar sectors. Integrate      Solar Photovoltaic Design and Installation class to 11
                                              the Home Energy Rating System (HERS)               youth in the YouthBuild program and the Pre-
                                              curriculum into the existing YouthBuild training   YouthBuild class. The youth who successfully
      Community Action                        curriculum. Develop new solar energy               complete the class will be able to apply to the
      Partnership of                          curriculum. A vocational education center for      International Brotherhood of Electrical Workers Local
18    Sonoma County      $85,910    $82,462   the city of Santa Rosa and county of Sonoma.       #551 as apprentices.




                                                                     52                                         Recovery Act: Green Jobs Program
                                                                                                                     Report No. 18-11-004-03-390
                                                                                            U.S. Department of Labor – Office of Inspector General



                          Grant     Amount
No.   Grantee Name       Award    Expended   Proposed Deliverables                               Summary Status of Reported Deliverables
                                                                                                 Grant goals included building the institutional
                                                                                                 capacity to provide training to instructors and
                                                                                                 students. Both goals have occurred and in the
                                                                                                 process six homes have been weatherized and
                                                                                                 “green” building techniques have been taught.
                                                                                                 Additional goals met include training additional
                                                                                                 instructors, building a five-star energy certified home
                                                                                                 and certifying students in the NCCER green
                                                                                                 curricular model, and insulation training as well as
                                                                                                 capacity through AmeriCorps to do green space
                                                                                                 enhancements in the community. Additional goals
                                                                                                 met included (1) The number of instructors who
                                                                                                 participated in grant-funded capacity building
                                                                                                 activities; 8 (2) The number of students subsequently
                                                                                                 trained by those instructors; 52 and (3) The number
      Youthbuild USA,                        Build a green resource library and acquire a        of other people participating and/or benefiting from
19    Inc.              $78,047    $35,979   green training curricula and equipment.             capacity building activities 70.
                                                                                                 Completed activities as outlined in our timeline
                                                                                                 submitted in our grant. Deliverables are 1)
                                                                                                 Construction of Solar Lab- 100% complete; additional
                                                                                                 supplies and materials list has been developed. 2)
                                                                                                 Construction Staff to complete Training Partner Solar
                                                                                                 Panel Array Installer Employee training is 100%
                                                                                                 complete. 3) Delivery of workshops on solar panel
                                                                                                 array installation to participants-100% completion; 4)
                                                                                                 Participant on-the-job training with training partner-
                                                                                                 100% completion 5) Participant access to training
                                                                                                 partner Solar Panel Array Installer Employee training
                                                                                                 (Sun Portal)- 100% completion 6) Green Jobs
                                                                                                 Module Curriculum development- 100% complete 7)
                                             Develop a new Green Jobs Module within the          Construction staff Green Certification attainment-
                                             curriculum of the existing YouthBuild program       100% complete 8) YouthBuild students obtain
                                             and establish a green career ladder.                Green Advantage Certification-0%; students required
      Community                              Construction of a 5 Kilowatt Solar Lab simulator    intensive instruction to be prepared that extended
20    Teamwork, Inc.    $77,585    $77,585   that will ensure the sustainability of training.    beyond the grant cycle.




                                                                   53                                           Recovery Act: Green Jobs Program
                                                                                                                     Report No. 18-11-004-03-390
                                                                                              U.S. Department of Labor – Office of Inspector General



                            Grant     Amount
No.   Grantee Name         Award    Expended   Proposed Deliverables                                 Summary Status of Reported Deliverables
                                                                                                     Walker Montgomery Community Development
                                                                                                     Corporation met and exceeded all performance
                                                                                                     measures in the implementation of the DOL Green
                                                                                                     Building Capacity Building Project. Project staff
                                                                                                     completed Green Interactive Classroom for Building
                                                                                                     and Trades Students. The Youthbuild students
                                                                                                     assisted in completing three new homes with green
                                                                                                     building features for low-income families. Project
                                                                                                     consultant completed the Model Home with Green
                                                                                                     building features. Model home will be used in the
                                               Upgrade the green building curriculum at the          classroom and on-site for instruction of students
                                               Raven School to include occupational skills           using hands- on and visual approach to learning
                                               training in the areas of weatherization installers,   about Green Building features. Through the end of
      Walker

                                 energy auditors (including the use of blower          May 2011, a total of 56 young people have been
      Montgomery

                             door), and an overview of the entire range of         enrolled in Green Building Program, of which 27 have
      Community

                              career paths in emerging Green Building (GB)          completed their General Equivalency Diploma. A
      Development 
                            occupations. Build one model Green Build              total of 14 have been employed with trade related
21    Corporation         $75,000    $74,219   home at the end of the 12th month.                    jobs.

                                               Integrate deconstruction training into its regular,
                                               10-module Pre-Apprenticeship Certification            YouthBuild Hartford was able to start and complete
                                               Training (PACT) curriculum for YouthBuild             the Green Jobs - Deconstruction Certification
                                               Hartford (YBH) participants. The grantee will         training. Twenty YouthBuild Hartford young people
                                               also contract to provide two 2-week modules of        were trained and certified as Deconstruction
      Co-Opportunity,                          on-the-job deconstruction training to YBH             Technicians. In addition, 6 YouthBuild Hartford young
22    Inc.                $69,933         $0   participants.                                         people were trained as crew chiefs.
                                                                                                     This grant was awarded in 2009, and was initially
                                               Update the existing Alaska Works construction         expected to be complete by November 30, 2010. Due
                                               curriculum to include an emphasis on                  to the timeline of our YouthBuild program, the actual
                                               weatherization. Update the existing Cook Inlet        completion date ended up being much closer to the
                                               Housing Authority hands-on construction               deadline. However, Cook Inlet Tribal Council, Inc.
      Cook Inlet Tribal                        training to include an emphasis on home               was able to meet the original timeline and
23    Council, Inc.       $67,268    $58,598   weatherization.                                       deliverables.




                                                                      54                                           Recovery Act: Green Jobs Program
                                                                                                                        Report No. 18-11-004-03-390
               U.S. Department of Labor – Office of Inspector General




Appendices 





               55                 Recovery Act: Green Jobs Program
                                       Report No. 18-11-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              56                Recovery Act: Green Jobs Program
                                     Report No. 18-11-004-03-390
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix A
Background

The Honorable Charles E. Grassley, then Ranking Member of the Senate Committee on
Finance, requested the Department of Labor, Office of Inspector General conduct an
audit of Recovery Act funds spent on Green Jobs. In his request dated October 6, 2010,
he requested an audit of Recovery Act funds spent on Green Jobs, and the definition
used by the Department for what constitutes a green job, as well as the duration of the
jobs created pursuant to the stimulus funds expended.

On February 17, 2009, President Barrack Obama signed the American Recovery and
Reinvestment Act (Recovery Act). The purpose of the Recovery Act was to assist those
most impacted by the recession and to expend funds as quickly as possible consistent
with prudent management. The Recovery Act referred to Section 171(e)(1)(B) of the
Workforce Investment Act (WIA) or The Green Jobs Act of 2007, and provided the
Department with $500 million designated for projects that prepare workers for careers in
energy efficiency and renewable energy sectors.

In addition to the Green Jobs Act of 2007, the definition used by ETA to award Green
Jobs grants was derived from the Energy Policy Act of 2005, and information obtained
from the O*NET, a database of occupational requirements and worker attributes. Details
of each follow:

The Green Jobs Act of 2007 – established an energy efficiency and renewable energy
worker training program. The seven energy efficiency and renewable energy industries
are comprised of the following:

   1. energy-efficient building, construction, and retrofits;
   2. renewable electric power;
   3. energy efficient and advanced drive train vehicle;
   4. biofuels;
   5. deconstruction and materials use industries;
   6. energy efficiency assessment serving the residential, commercial, or industrial
   sectors; and
   7. manufacturers that produce sustainable products using environmentally 

   sustainable processes and materials. 


The Energy Policy Act of 2005 – takes into consideration energy efficiency and
renewable energy as follows:

       Energy efficiency – (a) Increasing energy efficiency of vehicles, buildings, and
       industrial processes; (b) Reducing demand of the United States for energy,
       especially energy from foreign sources; (c) Reducing energy cost and making
       the economy more efficient and competitive; (d) Improving energy security of
       the United States; and (e) Reducing environmental impact of energy related
       activities.

                                           57                Recovery Act: Green Jobs Program
                                                                  Report No. 18-11-004-03-390
                                          U.S. Department of Labor – Office of Inspector General




       Renewable energy – (a) Increasing conversion efficiency of all forms of
       renewable energy through improved technologies; (b) Decreasing cost of
       renewable energy generation and delivery; (c) Promoting diversity of the energy
       supply; (d) Decreasing dependence of the United States on foreign energy
       supplies; (e) Improving United States energy security; (f) Decreasing
       environmental impact of energy related activities; and (g) Increasing export of
       renewable generation equipment from the United States.

O*NET – The National Center for O*NET Development prepared a research paper
“Greening of the World of Work,” which reflected three general categories of
occupations: (1) existing occupations expected to experience primarily an increase in
employment demand; (2) existing occupations with significant change to the work and
worker requirements; and (3) new and emerging green occupations. ETA stated that
this information was relevant to the understanding of the green jobs parameters that
were provided to grant applicants through grant solicitations.

ETA awarded these funds under five different types of competitive grant programs;
including Energy Training Partnership (ETP), State Energy Sector Partnership (SESP),
Pathways out of Poverty, State Labor Market Information (State LMI), and Green
Capacity. ETP, Pathways out of Poverty and SESP are training grants that prepare
individuals for careers in energy efficiency and the renewable energy sectors. State LMI
grants are to collect, analyze, and disseminate labor market information, and to
enhance the labor exchange infrastructure for careers within the renewable energy and
energy efficiency industries. Green Capacity grants strengthen grantee’s training
program through the purchase of equipment, staff professional development, curriculum
development, partnership development, and hiring of additional staff.




                                          58                 Recovery Act: Green Jobs Program
                                                                  Report No. 18-11-004-03-390
                                                U.S. Department of Labor – Office of Inspector General



                                                                                       Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

We conducted an audit of ETA’s Green Jobs program as part of our audit oversight
responsibilities and in response to a request from the Honorable Charles E. Grassley,
then Ranking Member of the Senate Committee on Finance. To this end, we developed
the following audit objectives:

        •	     How has ETA defined green jobs?
        •	     What is the status of funds expended, and how have grant funds been
               used?
        •	     To what extent have ETA and grantees reported achieving performance
               targets for training and placement of workers, and employment retention?

Scope

The scope of the audit covered the $500 million authorized by the Recovery Act and
included grantees’ reported data to ETA as of June 30, 2011 1. These grants were
awarded December 2009 and January 2010, with various grant end dates ranging from
November 2010 through January 2013. Our audit was not designed to, and we did not,
perform a financial audit of the amounts obligated or expended, nor did we verify the
performance outcomes data reported.

We considered whether internal controls significant to the monitoring of grantees were
properly designed and placed in operation. We confirmed our understanding of these
controls and procedures through interviews and review of ETA’s policies and
procedures.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

The grants were reviewed to determine the period of performance, types of training,
milestones and outcomes. We reviewed Quarterly Financial Reports to determine the
status of funds expended, Grants E-Management System (GEMS) to determine the
extent of monitoring performed, and interviewed ETA national and regional officials. For

1
 The original scope was updated from September 30, 2010 to June 30, 2011, to provide the most current
data available as of the report date.

                                                 59                Recovery Act: Green Jobs Program
                                                                        Report No. 18-11-004-03-390
                                           U.S. Department of Labor – Office of Inspector General



training grants, we reviewed Quarterly Performance Reports to obtain reported
performance outcomes related to training and job placement of participants, and
analyzed progress to date. For non-training grants, we reviewed Quarterly Narrative
Reports to gain an understanding of how grant funds were used. We conducted field
work at ETA headquarters in Washington, D.C.

In performing the audit, ETA provided us with a detailed listing of all Green Jobs grant
awards. We performed a data reliability assessment to ensure we had complete and
accurate grant award data. To determine whether the data was reliable to select our
sample, we compared the total of all grant awards on the grant award listing provided by
ETA to the amount authorized by the Recovery Act. The difference in the amounts was
for program administration and was confirmed by ETA. We reconciled grant amounts to
ETA News Releases publicized about the individual grantees within each of the five
grant programs. We did not identify any differences. We concluded the data to be
sufficiently reliable for our purposes.

To identify and assess internal controls relevant to our audit objectives, we interviewed
relevant ETA National and Regional personnel, and reviewed available policies and
procedures. In planning and performing our audit, we considered internal controls of
ETA’s grantee monitoring system by obtaining an understanding and performing an
audit of the program's internal controls, determined whether internal controls had been
placed in operation, assessed control risk, and performed tests of internal controls in
order to determine our auditing procedures for the purpose of achieving our objectives.
Our audit covered internal controls over monitoring of grantees in meeting performance
outcomes. Our consideration of ETA’s internal control for monitoring of grantees would
not necessarily disclose all matters that might be significant deficiencies because of the
inherent limitations in internal controls, misstatement, or losses, non compliance may
nevertheless occur and not be detected.

To gain a better understanding of the five Green Jobs programs, from the universe of
189 grants we statistically sampled 87 grants (46 percent) to review, totaling
$231 million (47 percent), using a 95 percent confidence level and +/-10 percent
sampling precision. The universe of 189 grants was stratified into three types of grants
including Training, State LMI, and Green Capacity. Training grants were further
stratified into three different types of training programs including ETP, SESP, and
Pathways. From each stratum a sample of grants was selected using a simple random
sampling approach as follows:




                                            60                Recovery Act: Green Jobs Program
                                                                   Report No. 18-11-004-03-390
                                          U.S. Department of Labor – Office of Inspector General




    Size of Audit Sample and Universe for Training and Non-Training Grants
                                                      Sample Size          Universe Size
    Training Grants
       SESP                                                        13                    34
       Pathways                                                    17                    38
       ETP                                                         10                    25
    Training Grant Subtotal                                        40                    97

    Non-Training Grants
      State LMI                                                    24                    30
      Green Capacity                                               23                    62
    Non-Training Grant Subtotal                                    47                    92

    Training and Non-Training Grant Total                          87                  189


For training grants, total sample size was 40 out of 97. For non-training grants, total
sample size was 47 out of 92. We reviewed 24 of the 30 State LMI grants. Based on a
review of the initial 30 percent of the Green Capacity sampled grant, we found a zero
percent error rate. We determined that had we continued our review, we would have
found a similar error rate throughout the sample testing therefore we discontinued with
our sample testing of the Green Capacity grant. The results of this sample testing were
not projected to the universe of grants.


Criteria

We used the following criteria to accomplish our audit:

•      American Recovery and Reinvestment Act of 2009, dated February 17, 2009
•      Green Jobs Act of 2007, dated July 27, 2007
•      ETA’s Core Monitoring Guide
•      Energy Policy Act of 2005, dated August 8, 2005
•      Employment and Training Order No. 1-08




                                           61                Recovery Act: Green Jobs Program
                                                                  Report No. 18-11-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              62                Recovery Act: Green Jobs Program
                                     Report No. 18-11-004-03-390
                                      U.S. Department of Labor – Office of Inspector General



                                                                             Appendix C
Acronyms

ETA              Employment and Training Administration

ETP              Energy Training Partnership

FY               Fiscal Year

GEMS             Grants E-Management System

Green Capacity   Green Capacity Building

HVAC             Heating Ventilation and Air Conditioning

OIG              Office of Inspector General

O*NET            Occupational Information Network

Pathways         Pathways Out of Poverty

Recovery Act     American Recovery and Reinvestment Act of 2009

SESP             State Energy Sector Partnership

State LMI        State Labor Market Information

WIA              Workforce Investment Act




                                       63                Recovery Act: Green Jobs Program
                                                              Report No. 18-11-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






              64                Recovery Act: Green Jobs Program
                                     Report No. 18-11-004-03-390
                                                      U.S. Department of Labor – Office of Inspector General



                                                                                                          Appendix D
ETA Response to Draft Report


     U.S. Department of Labor                   AsSIstant 8ecfetary lor
                                                                                                      ', I'
                                                                                                         "
                                                Employment arid Training
                                                WaShington. D.C. 20210
                                                                                                      (D
                                                                                                      . .
                                                                                                      ~
                                                                                                        ,,,
                                                                                                          ~
                                                                                                              "
                                                                                                                  .
                                                                                                                  '


               SEP 2 6 20TI

            MEMORANDUM FOR:               ELLIOT P. LEWIS
                                          Assistant Inspector General for Audit
                                          Office of the Inspector General

            FROM:                        JANEOATES ~
                                         Assistant Secre
                                                           0J:b.0
                                                    Employment and Training
                                                               0
                                         Employment and            . g Administration

            SUBJECT:                     Response to Draft Report No. 18-11-004-03-390
                                         "Recovery Act: Slow Pace Placing Workers into Jobs
                                         Jeopardizes Employment Goals of the Green Jobs
                                         Program"


            We acknowledge the complexity of conducting an audit of program activity that is in
            progress and apprec iate the willingness of the OIG audit team to receive additional
            performance information as it became available.

           The OIG examined three areas in its report leading to an overall conclusion that the
           Assistant Secretary should evaluate the Green Jobs Program; and in so doing, obtain a
           current estimate of the Green Jobs funds each grantee req uires, and if grantees fail to
           utilize their grants, ETA would terminate the grants and return the money to the U.S.
           Treasury.

           ETA strongly disagrees with the OIG's conclusion that ''there is no evidence that
           grantees will effectively use the funds and deliver targeted employment outcomes by the
           end of the grant period." Evidence demonstrates that grantees are effectively using
           funds. As of June 30, 2011, grantees have reported significant increases in performance
           outcomes over those initially reported at the start of the audit work. We expect
           performance to significantly increase over time following an initial lag during that
           standard start-up phase of the grants. In addition, ETA has put in place appropriate
           measures to monitor progress and provide robust technical assistance to belp ensure
           ultimate grant success for those that may be at-risk of not delivering all of the iT
           outcomes. In addition, ETA is evaluating the outcomes and impact of these grants
           through qualitative and random assignment evaluations.

           At this time, ETA has obligated all of its Recovery Act funds and does not intend to
           return any money to the U.S. Treasury. ETA's intention is that all funds that are the
           subject of this Report will have been expended by September 30, 2013, as required by
           OMB Memorandum M-11-34 (9115/ 11 ), which mandates that Recovery Act funds "not
           spent by September 30, 2013, ... shall [be] reclaim[ed] to the extent permitted by law."




                                                       65                      Recovery Act: Green Jobs Program
                                                                                    Report No. 18-11-004-03-390
                                           U.S. Department of Labor – Office of Inspector General




(See Memorandwn M-II-34 attached). ETA will continue to work with grantees to help
them meet program objectives and expend their funds within the OMB-required period. If
a grantee has not expended all ARRA funds by September 30, 2013, despite ETA's
requirements that it do so, those funds shall he reclaimed, as required.
ETA responses to the three areas explored in this audit are outlined below and
supplementary infonnation is attached.

Objective 1. ETA defined greenjobs as jobs associated with products and services that
use renewable energy resources, reduce pollution, and conserve natural resources.

ETA Response: ETA does not define industries or occupations; trus is not part of its
mission or functions. However, ETA does use definitions for green jobs as set forth
through legislation, or established by other agencies and industry when providing
guidance to grantees or grant applicants. ETA notes that the definition of "green jobs" is
an emerging concept. There is not a single overarching definition for these jobs, but
there are a nwnber of defining parameters that the ETA referenced when making grant
awards. ETA suggests that the report clarify this.

Objective 2. O/the $490.1 million a/grants awarded, $162.8 million (33 percent) had
been spent while 73 percent a/the grant period had elapsed as ofJune 30, 2011.

ETA Response: The report cites expenditure amouots for each SGA type in assessing
the progress of the grant. When assessing the financial status of the grants, the DIG
should use obligations as a primary indicator in addition to expenditures. Obligations
provide a more current measure of grantee financial status, since they reflect both grantee
CJlpcnditures to date as well as their immediate plans for expenditures. Based on grantee
quarterly financial reports for the quarter ending Juoe 30, 2011, the following are the
amount of obligations reported for each type of Green Jobs SGA:

       - Green Capacity Building grants: 92.9%
       - Labor Market Infonnation Improvement grants: 88.1 %
       - Energy Training Partnership grants: 62.2%
       - Pathways out of Poverty grants: 64.1%
       - State Energy Sector Partnersrup (SESP) grants: 65.6%

As this data indicates, grantee expenditures and planned expenditures are actually much
more closely aligned with the grant period than is reflected in the DIG report. ETA
suggests that the DIG amend the report accordingly.

The OIG aggregates grantee infonnation on expenditures across all categories of grants
referenced in this report, and then reports a blended total amount (an expenditure amount
of 32% is noted on p.2). The OIG uses a similar approach in reporting on grantee
program perfonnance in other sections of the report.

The grants have varying end dates depending on the type of grant and when awarded.
They also have different objectives and different structures (e.g. the SESP grants were


                                                                                             2




                                            66                     Recovery Act: Green Jobs Program
                                                                        Report No. 18-11-004-03-390
                                            U.S. Department of Labor – Office of Inspector General




awarded to states, which in twn provided funds to local areas, as opposed to some
Pathways Out of Poverty grants which were awarded directly to the local delivery level).
Given these factors, ETA suggests that the grant types be evaluated and reported on
~eparately, rather than aggregated into one ~et of stati~tics.


Furthermore, the report states that ETA awarded grants tota1ing $490.1 million, and
''retained the remaining $9.9 million for other services sucb as program administration
and technical assistance." That is not an accurate description of ETA's funding of
program administration and technical assistance related to ARRA grants. Program
Administration and technical assistance funds were set aside by ETA and used for the
total $750 million Program of ARRA Competitive Grants. The correct amounts for
program administration and technical assistance in support of the overall $750 million
are: $7.5 million for administration, and an additional $9.4 million for technical
assistance, which included support to the Occupational Information Network System
(O·NET), building the performance reporting system, and providing programmatic
technical assistance for the grants awarded out of the total $750 million. The support for
O·NET includes collecting information on identified new and emerging occupations
related to renewable energy and energy efficiency, and updating tools and technology
information for existing occupations with changing skill requirements.

Objective 3. ETA and grantees have reported achieving limited peiformance targets for
serving, placing and retaining workers; and risk not delivering targeted outcomes timely.

ETA Response: To date, the ARRA HGEI grants have made significant progress. As of
June 30, 2011, grantees have reported significant increases in performance outcomes over
those initially reported at the start of the audit work. The three types of training grants
started in January 2010, and grants generally have three to nine months of start up
activities to complete before they start serving and training participants. We expect
performance for these training grants to significantly increase over time foIlowing an
initiaJlag during the start-up phase. In addition, there are appropriate measures in place
to monitor progress and provide technicaJ assistance to help ensure ultimate grant success
for those that may be at-risk of not delivering aJl of their outcomes within the grant
period. ETA asks that the DIG adjust its report to reflect that the grants have made
significant progress.

OIG concludes that based on the current statistics for grantee retentions ''there is a trend
that calls into doubt ETA' s ability to achieve significant placement of workers into stable
green jobs." This text and data are misleading. Due to the timeframe for reporting the
''Retained Employment" data element, there is a 6 month lag between when an
individual is reported as successfully completing the education/training program and
obtaining employment, and when employment retention is reported. The data reflect
outcomes as of June 30, 2011 ; employment retention reported for this quarter includes
participants that were reported as entered employment as of 12.31.2010. As a result,
employment retention data reflect retention rates achieved for participants completing
training and employed within the first 12 months of grant activity, including the
traditional start phase and for most grantees, the early stages of training activities. It is



                                                                                             3




                                             67                      Recovery Act: Green Jobs Program
                                                                          Report No. 18-11-004-03-390
                                             U.S. Department of Labor – Office of Inspector General




 not surprising that grantees have relatively low retention rates as of June 30, given the
 status of their grants and how this figure is calculated. ETA asks that this section be
 amended accordingly.

 OlG also concluded that ETA cannot adequately measure grantee perfonnance or hold
 grantees accountable. However, ETA does hold grantees accountable and this should be
 reflected in the report. ETA holds the grantees to all projected performance outcomes
 that are included in their statement of work.. The Solicitation for Grant Applications
 asked applicants to provide outcome projections for a standard list of outcome categories
 (such as the number of participants that begin training and the number that complete
 training). Progress toward attainment of the goals on these measmes is captured through
 the program perfonnance data that each grantee submits. Therefore, while a grantee may
 not have provided an outcome projection for one specific category, ETA still monitors
 the grantee's progress on that measure through the perfonnance reporting requirements.
 Further, ETA still holds the grantees accountable for all the outcome projections that they
 did provide. Finally, all ETA grantees are held accountable through numerous federal
 requirements that make up our grant management system as a whole. In cases where the
 grantee consistently underperfonns, even after technical assistance has been provided, it
 may be necessary for the federal project officer to require a corrective action plan, or
 CAP. In instances where reporting offinancials are consistently in error the Grant
 Officer may implement a draw-down restriction, limiting available funds, until the errors
 are corrected or invoices are approved. These actions are Tare, but possible as a part of
 overall grant accountability. The report suggests that ETA does not 'hold grantees
 accountable,' which we believe is inaccurate.

 ETA hns comprehensive plans for monitoring and providing targetod and comprehensive
 technical assistance to these grants, which it has been implementing. ETA reviews
 grantee performance regularly and has provided grantees with extensive technical
 assistance and monitoring to help them meet their outcomes. This includes desk reviews
 and monitoring which is provided by ETA staff. It also includes extensive, specialized
 technical assistance on key program-related topics such as effective placement strategies
 and working with hard-te-serve populations.

  ETA strongly disagrees with the DIG's conclusion that "there is no evidence that
  grantees will effectively use the funds and deliver targeted employment outcomes by the
  end of the grant period." Evidence demonstrates that grantees are effectively using
  funds. The OIG report states that grants have served over 52,000 participants, provided
  training to over 46,600 participants, and that over 8,000 participants have entered
. employment. Furthermore. these data do not reflect all of the outcomes associated with
  services to incumbent workers that comprise a significant percentage (about 40 percent)
  of those trained through these grants. Incumbent workers are receiving critical training
  through these grants to help them retain their jobs, obtain new work, or otherwise
  upgrade their skills. Given the start dale of the grants and phased activities, these
  accomplishments are significant and appropriate to the grant cycle.




                                                                                             4




                                              68                     Recovery Act: Green Jobs Program
                                                                          Report No. 18-11-004-03-390
                                                   U.S. Department of Labor – Office of Inspector General




                                 EXECUTIVE OFFICE OF THE PRESIDENT
                                     OFFICE OF MANAGEMENT AND BUDGET
                                             WASHiNGTON. D.C. 20503




  THE DIRECTOR
                                         September 15,2011

 M-1l-34

 MEMORANDUM FOR. THE HEADS OF EXECUTIVE DEPARTMENTS AND AGENCIES

FROM:                         JACOB1LEW ~
                              DIRECTOR  V'" vv v •
SUBJECT:                      Accelerating Spending of Remaining Funds from the American
                              Recovery and Reinvestment Act for Discretionary Grant Programs

        In light of the current economic climate and the urgent need to put Americans back to work,
it is imperative that we exhaust all available options to drive the economy forward and create jobs.
That is why the President submitted the American Jobs Act to Congress on September 12th, 2011,
which will put more people back to work and more money in the pockets of working Americans.
And that is why we must also ensure that existing Government programs are doing everything to
ensure that funds are spent as quickly and efficiently as possible to drive job creation right now.

        On February 17,2009, the President signed into law the American Recovery and
Reinvestment Act of 2009, Pub. L. No. 111-5 ("Recovery Act"). As the Congress made clear in
enacting the Recovery Act, two of its primary purposes have been to "preserve and create jobs and
promote economic recovery" and to "assist those most impacted by the recession." To that end, the
Congress directed the President and the heads of Federal departments and agencies ("agencies") to
"manage and expend the funds made available in this Act so as to achieve the purposes [of the Act],
including commencing expenditures and activities as quickly as possible consistent with prudent
management."

        In underscoring the importance of spending Recovery Act funds quickly and efficiently, the
President established a goal that by September 30,2010, 70 percent of Recovery Act funding should
be spent (i.e., both obligated and outlayed). That goal was met, and this focused implementation
has been instrumental in driving the positive effects of the Recovery Act on the economy and job
creation. According to the most recent report from the Congressional Budget Office, the Recovery
Act has raised real GDP by as much as 2.5 percent compared to what it otherwise would have been,
lowered the unemployment rate by as much as 1.6 percent, and increased the number of people
employed by nearly three million.

        Nearly 85 percent of Recovery funds' have now been paid out and the vast majority of
remaining funds have already been obligated for projects that communities are counting on for job
creation. Despite the rapid pace of spending .of Recovery Act funds over the past 30 months., there
remain billions in discretionary Recovery Act funds that, although they have been obligated, have
not yet been outlayed. In light of the current economic situation and the need for further economic
stimulus, it is critical that agencies spend these remaining funds as quickly and efficiently as .
~~                                                                       .




                                                    69                       Recovery Act: Green Jobs Program
                                                                                  Report No. 18-11-004-03-390
                                                  U.S. Department of Labor – Office of Inspector General




                                                                                                    2

        Accordingly, subject to the exceptions described below, Federal agencies are hereby
directed to accelerate the spending of remaining Recovery Act funds in discretionary grant
programs (including formula grant programs that received discretionary funding in the Recovery
Act), consistent with existing laws and regulations and programmatic objectives. If those funds
have not been spent by September 30, 2013, agencies shall reclaim them to the extent permitted by
law.

Acceleration of Unspent Discretionary Grant Funds

        In order to ensure that remaining Recovery Act balances are spent in an expeditious fashion,
Federal agencies should establish aggressive targets, consistent with programmatic objectives, for
outlaying remaining funds. To that end, subject to certain exceptions, Federal agencies are directed
to take steps to complete Recovery Act projects by September 30,2013. This new policy would
compress the period- of availability for the bulk of remaining funds in discretionary grant programs
into the next two years.

        In executing this policy, Federal agencies should work collaboratively and transparently
with recipients of discretionary Recovery Act grants to accelerate the spending rate for all awarded
funds while still achieving core programmatic objectives. Agencies are encouraged to reduce
administrative hurdles that can delay expenditure of funds, as well as decrease delays between
receipt of invoices and outlaying corresponding funds. In addition, agencies should implement
programmatic safeguards to protect against unnecessary delays that would otherwise extend current
spending timelines beyond the new deadline established in this memorandum. Although this policy
is limited to discretionary Recovery Act grant programs, agencies should also establish appropriate
safeguards for ensuring the integrity of current spending timelines for other types of Federal
assistance and contracts, and encourage the acceleration of spending for these funds as well where
possible.

     Federal agencies may request waivers from the September 30, 2013 deadline for discretionary
grant funds where contractual commitments by the grantee 'with vendors or sub-recipients prevent
adjusting the timeline for spending, where a project must undergo a complex environmental review
that cannot be completed within this timefi:ame, where programs are long-term by design (such as
the majority of the High Speed Rail program) and therefore acceleration would compromise core
programmatic goals, or where other special circumstances exist. Agencies should request such
waivers sparingly, and they will be granted only due to compelling legal, policy, or operational
challenges. Agencies must submit all proposed waivers to OMB for review and approval by
September 30,2012. Any waiver requests must be made directly by the head of the agency.

    Agencies should Clearly communicate the requirements of this memorandum to grant recipients
through adding these requirements to new grant agreements, modifying terms and conditions of
existing grant agreements, or other appropriate written means consistent with law.




                                                   70                      Recovery Act: Green Jobs Program
                                                                                Report No. 18-11-004-03-390
                                                   U.S. Department of Labor – Office of Inspector General




                                                                                                     3

Reclamation of Unspent Discretionary Grant Funds after Deadline

        Agencies should revise the terms of Recovery Act discretionary grant agreements,
to the extent permitted by law, to provide for reclamation of funds that remain unspent after
September 30,2013, absent a waiver issued by OMB pursuaht to this memorandum.

       Section 1306 of the Dodd-Frank Wall Street Reform and Consumer Protection Act, Pub. L.
No. 111-203, amended Title XVI of the Recovery Act to require the rescission and return to the
General Fund of the Treasury certain funds that a Federal agency "withdraws or recaptures for any
reason" and that "have not been obligated by a State to a local government or for a specific project."
Agencies should consider whether this rescission-and-return requirement would apply to unspent
Recovery Act funds for discretionary grant programs that are reclaimed under the policy set forth in
this memorandum.

        By September 30,2012, agencies must submit to OMB any waiver requests from this policy
and have established a process for the reclamation of funds and suspension of activities for balances
that remain unspent after September 30, 2013 and are not subject to a waiver.




                                                    71                      Recovery Act: Green Jobs Program
                                                                                 Report No. 18-11-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






              72                Recovery Act: Green Jobs Program
                                     Report No. 18-11-004-03-390
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix E
Acknowledgements

Key contributors to this report were Mark Schwartz, Cardelia Tsoi, Charmaine Thorne,
Eliacim Nieves-Perez, John Schick, Nadeem Afzal, Reza Noorani, Mary Lou Casazza,
and Ajit Buttar.




                                         73                 Recovery Act: Green Jobs Program
                                                                 Report No. 18-11-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






              74                Recovery Act: Green Jobs Program
                                     Report No. 18-11-004-03-390
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
